APPENDIX

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
____________
2019-1001
CUSTOMEDIA TECHNOLOGIES, LLC,
APPELLANT

v.
DISH NETWORK CORPORATION, DISH NETWORK LLC,
APPELLEES

____________
Decided: Nov. 1, 2019
____________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2017-00019
____________
ON MOTION
____________
RAYMOND WILLIAM MORT, III, The Mort Law Firm,
PLLC, Austin, TX, for appellant.
(1a)

2a
ELIOT DAMON WILLIAMS, Baker Botts LLP, Palo
Alto, CA, for appellees. Also represented by GEORGE
HOPKINS GUY, III; ALI DHANANI, MICHAEL HAWES
Houston, TX.
____________
PER CURIAM.
ORDER
Customedia Technologies, LLC moves to vacate
and remand in light of this court’s recent decision in
Arthrex, Inc. v. Smith & Nephew, Inc., No. 2018-2140
(Fed. Cir. Oct. 31, 2019). That decision vacated and
remanded for the matter to be decided by a new panel
of Administrative Patent Judges (“APJs”) at the
Patent Trial and Appeal Board after this court
concluded that the APJs’ appointments violated the
Appointments Clause. Customedia’s motion seeks to
assert the same challenge here.
We conclude that Customedia has forfeited its
Appointments Clause challenge. “Our law is well
established that arguments not raised in the opening
brief are waived.” SmithKline Beecham Corp. v.
Apotex Corp., 439 F.3d 1312, 1319 (Fed. Cir. 2006)
(citing Cross Med. Prods., Inc. v. Medtronic Sofamor
Danek, Inc., 424 F.3d 1293, 1320–21 n.3 (Fed. Cir.
2005)). That rule applies with equal force to
Appointments Clause challenges. See, e.g., Island
Creek Coal Co. v. Wilkerson, 910 F.3d 254, 256 (6th
Cir. 2018); Turner Bros., Inc. v. Conley, 757 F. App’x
697, 699–700 (10th Cir. 2018); see also Arthrex, slip

3a
op. at 29 (emphasizing that Appointments Clause
challenges are not jurisdictional and that the court
was granting relief only when the party had properly
raised the challenge on appeal). Customedia did not
raise any semblance of an Appointments Clause
challenge in its opening brief or raise this challenge in
a motion filed prior to its opening brief. Consequently,
we must treat that argument as forfeited in this
appeal.
Accordingly,
IT IS ORDERED THAT:
The motion to vacate and remand is denied.
FOR THE COURT
November 1, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

4a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
____________
2019-1001
CUSTOMEDIA TECHNOLOGIES, LLC,
APPELLANT

v.
DISH NETWORK CORPORATION, DISH NETWORK LLC,
APPELLEES

____________
Decided: Nov. 7, 2019
____________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2017-00019
____________
ON MOTION
____________
Before REYNA, HUGHES, and STOLL, Circuit
Judges.
PER CURIAM.

5a
ORDER
Appellant Customedia Technologies, LLC moves
for leave to file a supplemental brief. In light of the
court’s November 1, 2019 order,
IT IS ORDERED THAT:
The motion is denied.

FOR THE COURT
November 7, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

6a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
____________
2019-1001
CUSTOMEDIA TECHNOLOGIES, LLC,
APPELLANT

v.
DISH NETWORK CORPORATION, DISH NETWORK LLC,
APPELLEES

____________
Decided: Nov. 8, 2019
____________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2017-00019
____________
JUDGMENT
____________
RAYMOND WILLIAM MORT, III, The Mort Law Firm,
PLLC, Austin, TX, argued for appellant.
ELIOT DAMON WILLIAMS, Baker Botts LLP, Palo
Alto, CA, argued for appellees. Also represented by

7a
GEORGE HOPKINS GUY, III; ALI DHANANI, MICHAEL
HAWES Houston, TX.
____________
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (REYNA, HUGHES, and STOLL, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT

November 8, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

8a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
____________
2019-1001
CUSTOMEDIA TECHNOLOGIES, LLC,
APPELLANT

v.
DISH NETWORK CORPORATION, DISH NETWORK LLC,
APPELLEES

____________
Decided: Dec. 23, 2019
____________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2017-00019
____________
ON MOTION FOR PANEL RECONSIDERATION
AND RECONSIDERATION EN BANC
____________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.

9a
PER CURIAM.
ORDER
Customedia Technologies, LLC moves for panel
reconsideration and reconsideration en banc of the
court’s November 1, 2019, and November 7, 2019,
orders (ECF Nos. 49, 51). The motion was referred to
the panel that issued the orders, and thereafter the
motion for reconsideration en banc was referred to the
circuit judges who are in regular active service.
DISH Network Corporation and DISH Network
LLC move to extend the time to respond to
Customedia’s motion by 14 days, until January 9,
2020.
Upon consideration thereof,
IT IS ORDERED THAT:
The motion for panel reconsideration is denied.
The motion for reconsideration en banc is denied.
The motion to extend time is denied as moot.
Circuit Judge NEWMAN dissents.
FOR THE COURT
December 23, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

10a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
____________
2019-1001
CUSTOMEDIA TECHNOLOGIES, LLC,
APPELLANT

v.
DISH NETWORK CORPORATION, DISH NETWORK LLC,
APPELLEES

____________
Decided: Mar. 5, 2020
____________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2017-00019
____________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
____________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.

11a
PER CURIAM.
ORDER
Appellant Customedia Technologies, LLC filed a
combined petition for panel rehearing and rehearing
en banc. A response to the petition was invited by the
court and filed by Appellees DISH Network
Corporation and DISH Network LLC. The petition
was referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on March 12,
2020.

12a
FOR THE COURT
March 5, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

13a
APPENDIX F
UNITED STATES PATENT AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL BOARD

____________
Case CBM2017-00019
Patent 7,840,437
DISH NETWORK CORPORATION, DISH NETWORK LLC,
PETITIONERS

v.
CUSTOMEDIA TECHNOLOGIES, LLC,
PATENT OWNER

____________
Entered: Jun. 12, 2017
____________
DECISION
Granting Institution of
Covered Business Method Patent Review
35 U.S.C. § 324(a) and 37 C.F.R. § 42.208
____________
Before MEREDITH C. PETRAVICK, MICHAEL W.
KIM, and KALYAN K. DESHPANDE, Administrative
Patent Judges.
Opinion for the Board filed by Administrative Patent
Judge KIM.

14a
Opinion Concurring filed by Administrative Patent
Judge PETRAVICK.
KIM, Administrative Patent Judge.
I. INTRODUCTION
A. Background
DISH Network Corporation and DISH Network
L.L.C. (collectively, “Petitioner”) filed a Petition to
institute a covered business method patent review of
claims 1, 9, 10, and 13–16 U.S. Patent No. 7,840,437
(Ex. 1001, “the ’437 patent”) on grounds of
unpatentability under 35 U.S.C. §§ 101, 103. Paper 1
(“Pet.”). Customedia Technologies, L.L.C. (“Patent
Owner”) filed a Preliminary Response. Paper 6 1
(“Prelim. Resp.”). For the reasons given below, we are
persuaded that Petitioner has demonstrated “that it
is more likely than not that at least 1 of the claims
challenged in the petition is unpatentable.” 35 U.S.C.

The Preliminary Response contains passages of
words reproduced from other documents as what
appears to be images. See e.g., Prelim. Resp. 50–51.
The passages are reproduced in fonts and spacing that
do not comply with the requirements of 37 C.F.R. §
42.6(a)(2)(ii), (iii). The parties are cautioned that all
documents created for this proceeding must comply
with 37 C.F.R. §§ 42.6(a)(2) (ii), (iii) and that strict
attention should be given to the mandated word count
certification of 37 C.F.R. §§ 42.24(a), (d). See Google
Inc. v. Makor Issues & Rights Ltd., Case No. IPR201601535, slip op. at 7 (PTAB, Dec. 1, 2016) (Paper 8).
1

15a
§ 324(a). We, thus, institute a covered business
method patent review of claims 1, 9, 10, and 13–16 of
the ’437 patent, however, on less than all grounds
challenged. We institute on the § 101 based ground
only.
B. Related Proceedings
Petitioner and Patent Owner identify the following
district court proceeding concerning the ’437 patent:
Customedia Technologies, L.L.C. v. DISH Network
L.L.C., Civil Action No. 2:16-CV-00129 (E.D. Tex).
Pet. 1; Paper 5, 2. The following proceeding, before the
Board, also involves the same parties and the ’437
patent: IPR2017-00936. U.S. Patent No. 8,955,029
(“the ’029 patent”) is related by continuity to the ’437
patent, and the ’029 patent is involved in the following
proceedings before the Board, and also involves the
same parties: CBM2017-00031, IPR2017-00638,
IPR2017-00639.
C. Standing
Section 18 of the American Invents Act governs the
transitional program for covered business method
patent reviews. Leahy-Smith America Invents Act
(“AIA”), Pub. L. No. 112-29, § 18, 125 Stat. 284, 329–
31 (2011); see also 37 C.F.R. §§ 42.300–304 (2016)
(setting forth the rules governing the transitional
program for covered business method patents).
Section 18(a)(1)(B) of the AIA limits such reviews to
persons, or their privies, that have been sued or
charged with infringement of a covered business
method patent. See also 37 C.F.R. § 42.302 (setting
forth who may petition for a covered business method

16a
patent review). Petitioner asserts that, because it has
been sued for infringement of the ’437 patent, it has
standing to file this Petition. Pet. 2 (citing Exs. 1005,
1008). Based on the record before us, we agree.
D. The ’437 Patent
The ’437 patent discloses that the claimed invention
relates generally to “renting or purchasing data
products for immediate, on-demand delivery, which
may be formatted and transferred to a portable
medium for use in any existing playback device.” Ex.
1001, 1:29–33. According to the ’437 patent, an
“information explosion” has created “a serious need
for an integrated system that manages and handles
the growing amount of information available over the
various data feeds and can meet the needs and desires
of the end user.” Ex. 1001, 1:59–62. The ’437 patent
purports to solve these problems as follows:
The current invention solves these
problems through the use of an
integrated information management and
processing system that provides for the
handling, sorting and storage of large
amounts of data that is a user-defined
and user resident environment. It allows
this management to occur both during
and after the actual feed is being
received, while also allowing various
decisions to be made about the
suitability, quality, and other content of
the information being received. The
invention also has the capability to be

17a
securely accessed and utilized from a
remote location, including telephone,
Internet,
and
remote
computer/
television access. This would allow
services to provide virtual user
transaction zones.
Ex. 1001, 3:19–30.
E. Illustrative Claim
Petitioner challenges claims 1, 9, 10, and 13–16 of
the ’437 patent. Claim 1, the only independent claim,
is illustrative of the challenged claims, and is
reproduced below:
1. A system for the processing,
recording, and playback of audio or video
data, comprising:
a. receiver apparatus for receiving
audio or video data from at least one data
feed;
b. memory circuitry comprising a
storage device built in to the system and
which is not removable from the system;
c. processing circuitry for processing
the data and for storing the processed
data in the built in storage device;
d. a
user
interface
operatively
connected to the processing circuitry for
programming
which
processing
functions are to be applied to the
received data by the processing circuitry;

18a
e. playback circuitry, which reads the
data from the built in storage device and
which converts the data to electronic
signals for driving a playback apparatus;
and
f. a microprocessor having software
programming to control the operation of
the processing circuitry and the playback
circuitry enabling the recording of rented
data and enacting a simulated return of
said rented data by deleting or
scrambling said data from said built in
storage device or blocking further access
to said data, and notifying a data supplier
of said simulated return.
F. Covered Business Method Patent
Section 18(d)(1) of the AIA defines a covered
business method patent as “a patent that claims a
method or corresponding apparatus for performing
data processing or other operations used in the
practice, administration, or management of a
financial product or service, except that the term does
not include patents for technological inventions.” See
also 37 C.F.R. § 42.301(a) (stating the same). To
determine whether a patent is a covered business
method patent, “the statutory definition of a CBM
patent requires that the patent have a claim that
contains, however phrased, a financial activity
element.” Secure Axcess, LLC v. PNC Bank Nat’l
Ass’n, 848 F.3d 1370, 1381 (Fed. Cir. 2017); see also
Blue Calypso, LLC v. Groupon, Inc., 815 F.3d 1331,

19a
1340 (Fed. Cir. 2016) (stating that “§ 18(d)(1) directs
us to examine the claims when deciding whether a
patent is a [Covered Business Method] patent”);
Unwired Planet, LLC v. Google, Inc., 841 F.3d 1376,
1382 (Fed. Cir. 2016) (“CBM patents are limited to
those with claims that are directed to methods and
apparatuses of particular types and with particular
uses ‘in the practice, administration, or management
of a financial product or service.’”).
Based on this record and for the reasons discussed
below, we agree with Petitioner that the ’437 patent is
a covered business method patent eligible for review.
1. Financial Product or Service
Petitioner asserts that “[t]he claims here are
directed to video-on- demand (‘VOD’) service, which is
a well-known method for distributing digital content
to subscribers for payment of a fee.” Pet. 5. Petitioner
directs our attention to claim 1’s recitation of software
programming “enacting a simulated return of said
rented data.” Pet. 6.
According to Patent Owner, the claimed
“manipulation of rented data” does not “demonstrate
that the sale of rented data is an express financial
component that is central to the operation of the
claimed invention of the ’437 Patent.” Prelim. Resp.
12. Patent Owner argues that “the claim[ed] ‘rented
data’ is only incidental to [a] financial activity and
[the] remainder of the claims and claim elements are
not directed to any financial activity.” Prelim. Resp. 8.
Patent Owner states “[t]he claims of the ’437 Patent
do not recite selling anything.” Prelim. Resp. 14.

20a
Contrary to Patent Owner’s argument, the claims of
the ’437 patent do explicitly recite a financial
activity—renting or purchasing data. Dependent
claim 17 recites “wherein said system includes an
electronically based payment system making rental
charges to a user’s credit or debit account.” Dependent
claim 18 recites “wherein said credit or debit account
comprises a credit card account, a checking account,
or an ATM account.” Dependent claim 27 recites “said
software programming further enabling access to an
Internet based subscription service and automatic
downloading of data for rental or purchase.”2 The “said
software programming” limitation, recited in
dependent claim 27, refers to the following limitation
recited in independent claim 1 (emphasis added):
a microprocessor having software
programming to control the operation of
the processing circuitry and the playback
circuitry enabling the recording of rented
data and enacting a simulated return of
said rented data by deleting or
scrambling said data from said built in
storage device or blocking further access
to said data, and notifying a data supplier
of said simulated return.

We acknowledge that Petitioner does not rely
expressly on dependent claims 17, 18, and 27 for the
first prong. See generally Pet. 3–7. Patent Owner will
have the opportunity to respond during trial.
2

21a
We are persuaded that the claims of the ’437 patent
satisfy the “financial product or service” component of
the definition for a covered business method patent
set forth in § 18(d)(1) of the AIA. The rental or
purchase of data, including charging a fee to a user’s
account, is a financial activity and a financial service.
See SightSound Techs., LLC v. Apple Inc., 809 F.3d
1307, 1315–16 (Fed. Cir. 2015) (finding a method
claiming selling digital video or audio signals for a fee
is a financial service).
A patent need have only one claim directed to a
covered business method to be eligible for review. See
Transitional Program for Covered Business Method
Patents—Definitions of Covered Business Method
Patent and Technological Invention, 77 Fed. Reg.
48,734, 48,736 (Aug. 14, 2012) (Comment 8); see also
Emerson Electric. Co. v. SIPCO LLC, Case CBM201600095, slip op. at 7 n.2 (PTAB Jan. 23, 2017) (Paper
12) (“Although the patentability of claims 3 and 4 are
not challenged by Petitioner in this proceeding, there
is no requirement that only challenged claims may be
considered for purposes of determining a patent is
eligible for covered business method patent review. As
discussed above, a patent is eligible for review if it has
at least one claim directed to a covered business
method. 77 Fed. Reg. at 48,736 (Response to Comment
8).”).
2. Technological Invention
As set forth above, the definition for “covered
business method patent” does not include patents for
“technological inventions.” AIA § 18(d)(1); see also 37

22a
C.F.R. § 42.301(a) (stating the same). To determine
whether a patent falls within this exception, our rules
prescribe a two-prong approach whereby we consider
“whether the claimed subject matter as a whole [(1)]
recites a technological feature that is novel and
unobvious over the prior art; and [(2)] solves a
technical problem using a technical solution.” 37
C.F.R. § 42.301(b). Further, the following claim
drafting techniques would not typically render a
patent a “technological invention”:
(a) Mere
recitation
of
known
technologies,
such
as
computer
hardware, communication or computer
networks, software, memory, computerreadable storage medium, scanners,
display devices or databases, or
specialized machines, such as an ATM or
point of sale device.
(b) Reciting the use of known prior art
technology to accomplish a process or
method, even if that process or method is
novel and non-obvious.
(c) Combining prior art structures to
achieve the normal, expected, or
predictable result of that combination.
Office Patent Trial Practice Guide (“Trial Practice
Guide”), 77 Fed. Reg. 48,756, 48,764 (Aug. 14, 2012).
Pursuant to the two-prong framework, Petitioner
argues that the claims of the ’437 patent do not meet
either prong. Pet. 7–9 (citing Ex. 1001). Patent Owner
disagrees for several reasons. Prelim. Resp. 16–18

23a
(citing Exs. 1001, 2001). We have considered Patent
Owner’s arguments, but we are persuaded, on this
record, that Petitioner has shown sufficiently that the
claimed invention of the ’437 patent is not for a
technological invention.
In regard to the first prong, which considers whether
the claimed subject matter as a whole recites a
technological feature that is novel and unobvious over
the prior art, Petitioner asserts that the claims recite
only generic computer components performing generic
computer functions that were well known in the art at
the time of the invention. Pet. 8 (citing Ex. 1001).
Patent Owner does not appear to challenge this prong.
See generally Prelim. Resp. 16–18.3 After considering
Petitioner’s assertions, on this record, we are
persuaded they are correct.
Turning to the second prong for determining
whether a patent is for a “technological invention,” we
recognize that Patent Owner presents assertions
directed to whether the claimed invention solves a
technical problem using a technical solution. Prelim.
Resp. 16–18; see also id. at 26– 38 (in the context of a
ground of unpatentability under 35 U.S.C. § 101,
assertions that patents are directed to a technological
The sub-heading at page 16 of the Preliminary
Response reads “3. Claim 1 solves a technical problem
using a technical solution,” which, by its express
terms, is only being directed to the second factor. The
arguments on pages 16–18 are consistent with that
assessment.
3

24a
solution to a technological problem). We, however,
need only assess whether one of the prongs set forth
in 37 C.F.R. § 42.301(b) is deficient to determine
whether the claims of the ’437 patent are not for a
“technological invention.” See Apple Inc. v. Ameranth,
Inc., 842 F.3d 1229, 1240 (Fed. Cir. 2016) (“We need
not address this argument regarding whether the first
prong of 37 C.F.R. § 42.301(b) was met, as we affirm
the Board’s determination on the second prong of the
regulation—that the claimed subject matter as a
whole does not solve a technical problem using a
technical solution”).4 As set forth above, based on the
current record, we are persuaded by Petitioner’s
explanation as to why the claimed subject matter, as
a whole, does not recite a technological feature that is
novel and non-obvious over the prior art, and,
therefore, we are satisfied that Petitioner has met its
burden of demonstrating that the ’437 patent is not for
a “technological invention.”

Although we acknowledge there may be differences
between prong two and the “significantly more”
analysis under 35 U.S.C. § 101, as a practical matter,
and on the facts of this case, we discern our below
analysis in Section II.A.3 would also be applicable
here, i.e., “[w]e are unpersuaded, as we discern that
the focus of ‘delivering rented audio/video electronic
content to a user’ is the ‘rental’ aspect, which concerns
a business problem in the abstract, as opposed to a
technological one.”
4

25a
G. Asserted Ground of Unpatentability
Petitioner challenges claims 1, 9, 10, and 13–16 as
follows:
Reference(s)

Ginter5

Basis

Challenged Claims

§ 101

1, 9, 10, and 13–16

§ 102(b) 1, 9, 10, and 13–16

Ginter and Stefik6 § 103(a) 1, 9, 10, and 13–16
Petitioner relies on the Declaration of Anthony
Wechselberger (Ex. 1004). Patent Owner relies on the
Declaration of Dr. Jay P. Kesan (Ex. 2001).
II. ANALYSIS
A. Claims 1, 9, 10, and 13–16 as Directed to
Non-Statutory Subject Matter
Under 35 U.S.C. § 101
Petitioner contends that claims 1, 9, 10, and 13–16
do not recite patent eligible subject matter under 35
U.S.C. § 101, because they are directed to an
WO 96/27155, pub. Sept. 6, 1996 (Ex. 1002,
“Ginter”).
5

U.S. Patent No. 5,634,012, iss. May 27, 1997 (Ex.
1003, “Stefik”).
6

26a
unpatentable abstract idea and do not contain an
“inventive concept” that amounts to significantly more
than the abstract idea. Pet. 23–39 (citing Exs. 1001,
1004). Patent Owner disagrees. Prelim. Resp. 25–38
(citing Exs. 1001, 1004, 2001).
1. Relevant Law
An invention is patent-eligible if it claims a “new
and useful process, machine, manufacture, or
composition of matter.” 35 U.S.C. § 101. The Supreme
Court, however, has long interpreted § 101 to include
implicit exceptions: “[l]aws of nature, natural
phenomena, and abstract ideas” are not patentable.
E.g., Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134 S. Ct.
2347, 2354 (2014).
In determining whether a claim falls within the
abstract ideas exception, we are guided in our analysis
by the Supreme Court’s two-step framework,
described in Mayo and Alice. Id. at 2355 (citing Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S.
Ct. 1289, 1296–97 (2012)). In accordance with that
framework, we first determine whether the claim is
“directed to” a patent-ineligible abstract idea. See
Alice, 134 S. Ct. at 2356. We evaluate “the focus of the
claimed advance over the prior art to determine if the
claim’s character as a whole is directed to excluded
subject matter.” Affinity Labs of Tex., LLC v.
DIRECTV, LLC, 838 F.3d 1253, 1257 (Fed. Cir. 2016)
(internal quotation marks omitted). “[W]hen
considering claims purportedly directed to ‘an
improvement of computer functionality,’ we ‘ask
whether the focus of the claims is on the specific

27a
asserted improvement in computer capabilities . . . or,
instead, on a process that qualifies as an ‘abstract
idea’ for which computers are invoked merely as a
tool.” Smartflash LLC v. Apple, Inc., No. 2016-1059,
slip op. at 9 (Fed. Cir. Mar. 1, 2017) (quoting Enfish,
LLC v. Microsoft Corp., 822 F.3d 1327, 1335–36 (Fed.
Cir. 2016)).
The following method is then used to determine
whether what the claim is “directed to” is an abstract
idea:
[T]he decisional mechanism courts now
apply is to examine earlier cases in
which a similar or parallel descriptive
nature can be seen—what prior cases
were about, and which way they were
decided. See, e.g., Elec. Power Grp., 830
F.3d at 1353–54 That is the classic
common law methodology for creating
law when a single governing definitional
context is not available. See generally
Karl N. Llewellyn, The Common Law
Tradition: Deciding Appeals (1960). This
more flexible approach is also the
approach employed by the Supreme
Court. See Alice, 134 S.Ct. at 2355–57.
We shall follow that approach here.
Amdocs (Israel) Limited v. Openet Telecom, Inc., 841
F.3d 1288, 1294 (Fed. Cir. 2016) (footnote omitted).
If the claim is “directed to” a patent-ineligible
abstract idea, we then consider the elements of the
claim—both individually and as an ordered

28a
combination—to assess whether the additional
elements transform the nature of the claim into a
patent-eligible application of the abstract idea. Alice,
134 S. Ct. at 2355. This is a search for an “inventive
concept”—an element or combination of elements
sufficient to ensure that the claim amounts to
“significantly more” than the abstract idea itself. Id.
2. Whether the Claims Are Directed
to an “Abstract Idea”
Petitioner asserts the following:
Claim 1 of the ’437 Patent is directed to
the abstract idea of delivering rented
audio/video content to a user. Ex. 1004 at
¶ 105. The remaining elements of the
claim merely identify the generic
technological environment (i.e., the
“receiver
apparatus,”
“memory
circuitry,” “processing circuitry,” “user
interface,” “playback circuitry,” and
“microprocessor”) and add routine and
conventional post-solution activity. Id. at
¶ 109.
Pet. 28. Patent Owner asserts that (1) the ’437 patent
is directed to the field of telecommunications and to
systems and methods for processing, recording, and
playing back audio and video data, (2) that the claims
are directed to a specific interconnection and
operation of circuitry and devices, which are not an
abstract idea, and (3) that the Petitioner failed to
consider the claim limitations as an ordered
combination, and in view of the specific technological

29a
problem to be solved. Prelim. Resp. 32–38. While we
agree with some aspects of each of Petitioner’s and
Patent Owner’s assertions, in the aggregate, we agree
with Petitioner.
Under step one of Alice, we begin by analyzing what
the claims are “directed to,” and then determine
whether what the claim is “directed to” is an abstract
idea. In doing so, our reviewing court has cautioned
against overgeneralizing what the claims are
“directed to.” Enfish, 822 F.3d at 1337. As the parties
focus their analysis on independent claim 1, we also
do the same.
Any analysis concerning what a claim is “directed to”
should begin with the express claim language. Id. To
that end, in asserting that independent claim 1 is
directed to “delivering rented audio/video content to a
user,” Petitioner places great weight on one claim
limitation, “a microprocessor having software
programming [for] enacting a simulated return of said
rented data,” and regards all other claim limitations
as ancillary computer components that perform
functions that are “generic,” “routine” and
“conventional.” Pet. 28.
Patent Owner essentially asserts that Petitioner
improperly fails to account for the preamble of
independent claim 1, which reads as follows: “system
for the processing, recording, and playback of audio or
video data.” Prelim. Resp. 33. We are unpersuaded by
this assertion, as we discern that “delivering rented
audio/video content to a user” adequately accounts for

30a
“processing, recording, and playback of audio or video
data.”
Patent Owner also asserts that Petitioner
improperly fails to account for the specific
interconnection and operation of circuitry and devices
recited in the claim. Prelim. Resp. 33–36. We agree
with Patent Owner in part. In reviewing the identified
portions of the claim, we are generally more
persuaded by Petitioner’s implication that the
technical components, and their interconnections, are
ancillary to “delivering rented audio/video content to
a user.” More specifically, in practical terms, when we
remove the “rental” related limitations, we agree with
Petitioner that independent claim 1 does not appear
to recite much more than technical components
storing and processing generic data. We do agree with
Patent Owner’s general point, however, that the
overall recitation of interconnections between
multiple technical components that make up the vast
majority of the claim, as well as the details concerning
the technical problems and components set forth in
the vast majority of the overall Specification, indicate
that the data stored and processed is electronic.
Accordingly, we amend Petitioner’s assertion as to
what the claims are direct to as follows: “delivering
rented audio/video electronic content to a user.”
Patent Owner asserts further that Petitioner
overgeneralizes and improperly fails to account for the
claim limitations as an ordered combination. Prelim.
Resp. 36. We disagree. We discern that independent
claim 1 recites components for renting and returning

31a
digital content in the order that such an operation
would occur.
Having now considered the claim language, we turn
to the Specification, and its role in determining what
the claim is “directed to.” To that end, Petitioner cites
two portions of the Specification, each of which we will
evaluate in turn.
Petitioner cites “[i]n order to avoid late charges or
fees for rental transactions, the user must ‘return’ the
data product by selecting a return option from the
electronic menu.” Pet. 29 (citing Ex. 1001, 35:52–54).
This citation generally supports Petitioner’s assertion
that the claims are directed to “delivering rented
audio/video electronic content to a user,” and the use
of the terms “a return option from the electronic menu”
indicates that our determination to add the
“electronic” to Petitioner’s assertion as to what the
claim is “directed to” is proper. We discern the same is
true for Petitioner’s additional citation to “[r]ecently,
electronic commerce has blossomed on the Internet.”
Pet. 29 (citing Ex. 1001, 2:62–63) (emphasis added).
Having determined that independent claim 1 is
directed to “delivering rented audio/video electronic
content to a user,” we now assess whether this is an
abstract idea. To that end Petitioner asserts the
following:
The alleged “invention” of the ’437
Patent is nothing more than a computer
and Internet enabled application of the
well- known and long-established
concept of renting media content such as

32a
videos. Id. at ¶ 110. Specifically, claim 1
requires “a microprocessor having
software programming [for] enacting a
simulated return of said rented data.”
Ex. 1001 at 46:31–34. Not only does the
claim specifically refer to the content as
“rented data,” but the specification only
discusses the idea of a “return” in
relation
to
rental
transaction
embodiments. See, e.g., id. at 35:52–54
(“In order to avoid late charges or fees for
rental transactions, the user must
‘return’ the data product by selecting a
return option from the electronic
menu.”). The concept of renting and
returning movies to brick and mortar
video rental stores was well known at the
time of the purported invention of the
’437 Patent. Ex. 1004 at ¶ 130. . . .
The Federal Circuit recently affirmed a
district court’s finding that “the concept
of delivering user-selected media content
to portable devices is an abstract idea, as
that term is used in the section 101
context.” Affinity Labs, 2016 WL
5335502, at *2. The district court had
found that “[t]he process of selecting
media, receiving that media, and
subsequently playing that media
describes an abstract idea, devoid of a
concrete or tangible application.” Affinity
Labs of Texas, LLC v. Amazon.Com, Inc.,

33a
No. 6:15-CV-0029-WSS-JCM, 2015 WL
3757497, at *8 (W.D. Tex. June 12,
2015).
Pet. 28–29. Patent Owner responds as follows:
Similarly, Petitioner’s attempt to
analogize Claim 1 of the ’437 Patent to
the claims in Affinity Labs fails. The
media system of Claim 14 of the patentat-issue in Affinity Labs, for example,
includes (1) a network based media
managing system, (2) a collection of
instructions stored in a non-transitory
medium and configured for execution by
a processor of a handheld wireless
device, and (3) a network based delivery
resource. Affinity Labs at *3–4. The
three elements of Claim 14 of Affinity
Labs are not circuitry or devices, like the
elements of Claim 1 of the ’437 Patent,
which is critical given the CAFC’s
repeated emphasis on the specific
structure and architecture in the
limitations. See, e.g., BASCOM, 827 F.3d
at 1350.
Prelim. Resp. 38. At this stage of the proceeding, and
on this record, we agree with Petitioner. Specifically,
we agree that “delivering rented audio/video
electronic content to a user” is little more than a
generic “computerization” of “the well-known and
long-established concept of renting media content
such as videos.” Pet. 28 (citing Ex. 1004 ¶ 110).

34a
We also agree that we discern little daylight
between that which independent claim 1 is directed
to, and the concept determined to be patent- ineligible
in Affinity Labs, i.e., “delivering user-selected media
content to portable devices.” Similarly, in Smartflash,
the Federal Circuit determined that claims reciting a
method and a terminal for controlling access to and
retrieving multimedia content were directed to the
abstract idea of “conditioning and controlling access to
data based on payment.” Smartflash, No. 2016-1059,
slip op. at 4–6. Like the claims at issue here, the
claims at issue in Smartflash recited the use of
components of a computer, such as a processor having
code to receive multimedia content and code to control
access to the multimedia content according to use
rules, a user interface, a memory, and an audio/video
player. Id. at 4–6. The Federal Circuit determined
that the claims “invoke computers merely as tools to
execute fundamental economic practices.” Id. at 10;
see also Ultramerical, Inc. v. Hulu, LLC, 772 F.3d 709,
716 (Fed. Cir. 2014) (finding computer- implemented
system claim merely recited the abstract idea of
offering media content in exchange for viewing an
advertisement, along with routine additional steps
such as restrictions on public access).
3. Whether the Claims Recite “Significantly More”
than an Abstract Idea
Petitioner goes into detail concerning each of claims
1, 9, 10, and 13– 16, and why each of these claims does
not contain an inventive concept that amounts to
“significantly more” than an abstract idea. Pet. 30–39.
Patent Owner asserts that specific interconnection of

35a
circuitry and devices set forth in the claims amount to
“significantly more.” While we acknowledge that
specific interconnections of circuitry and devices are
recited in independent claim 1, Petitioner asserts that
they are all conventional, and, on this record and at
this stage of the proceeding, we are persuaded that
Petitioner is correct. For example, Patent Owner
asserts that the separation of functions between the
processing
circuitry
and
microprocessor
is
“significantly more.” Prelim. Resp. 36. Petitioner
asserts that the recited “processing circuitry” is
identified in the ’437 patent as being generic (Pet. 32
(citing Ex. 1001, 14:46–48 (“[p]rocessing means 13
may include any number of circuits, signal processors,
filters, or other data manipulation devices known in
the art”))), and that “microprocessors were commonly
used in electronic appliances before the purported
invention of the ’437 Patent.” Pet. 34 (citing Ex. 1004
¶ 127). On this record and at this stage of the
proceeding, we are persuaded that Petitioner has
demonstrated that it is more likely than not to prevail,
in that we are unable to readily discern the alleged
“unconventionality” present in what would otherwise
seem to be a typical interconnection of two otherwise
seemingly generic components. Patent Owner’s
assertions that the claims are directed to using
conventional components in an unconventional
manner (Prelim. Resp. 37–38) are equally
unpersuasive for the same reasons.
Patent Owner asserts further that the specific
interconnections of circuitry and devices constitute a
technological solution to a technological problem.

36a
Prelim. Resp. 37. We are unpersuaded, as we discern
that the focus of “delivering rented audio/video
electronic content to a user” is the “rental” aspect,
which concerns a business problem in the abstract, as
opposed to a technological one.
4. Conclusion
For the foregoing reasons, we determine that
Petitioner has demonstrated that it is more likely
than not that Petitioner would prevail in showing that
claims 1, 9, 10, and 13–16 are unpatentable on this
ground.
B. Claims 1, 9, 10, and 13–16 as
Anticipated by Ginter
Petitioner asserts that Ginter anticipates claims 1,
9, 10, and 13–16. Pet. 39–54 (citing Exs. 1002, 1004).
Patent Owner disagrees. Prelim. Resp. 39–45 (citing
Exs. 1002, 2001). In particular, Patent Owner asserts
that Petitioner does not account adequately for the
“processing circuitry” and the “microprocessor having
software programming to control the operation of the
processing circuitry” recited in independent claim 1.
We agree with Patent Owner.
Petitioner asserts that the following disclosures in
Ginter account for the recited “processing circuitry”:
The electronic appliance of Ginter
comprises one or more “conventional
general purpose central processing
units” (“CPUs”), identified as CPU 654.
Ex. 1002 at 125:20–23. “CPU 654 may
provide
storage,
database,
and

37a
communications services.” Id. at 227:3–
5. The electronic appliance of Ginter
further comprises an I/O controller that
“permits CPU 654 . . . to read from and
write to secondary storage 662.” Id. at
186:21– 187:2. As discussed above in
relation to Limitation [1c], secondary
storage 662 comprises the storage device
that is not removable from the system. A
person of ordinary skill in the art would
understand that a CPU is processing
circuitry. Ex. 1004 at ¶ 158.
Pet. 42.
Petitioner further asserts that the following
disclosures in Ginter account for the recited
“microprocessor”:
The electronic appliance of Ginter has
“one or more conventional general
purpose central processing units (‘CPUs’)
654 [that] are connected to bus 653.” Ex.
1002 at 185:21–22. These CPUs “may be
any
centrally
controlling
logic
arrangement, such as for example, a
microprocessor, other microcontroller,
and/or array or other parallel processor.”
Id. at 193:14-17. Ginter’s appliance
includes an operating system that
“manages the resources of electronic
appliance 600, and provides a commonly
used set of functions for programmers
writing applications 608 for the

38a
electronic appliance.” Ex. 1002 at 226:7–
10. Specifically, the operating system
may “manage[ ] the hardware (e.g.,
CPU(s) and memory(ies)) . . . within one
or more general purpose processors
within electronic appliance 600” and the
“other electronic appliance hardware
resources, such as peripheral devices
attached to an electronic appliance” such
as “keyboard 612, display 614, modem
618, disk drive 620, printer 622, scanner
624.” Ex. 1002 at 226:11–19. It “may also
manage secure database 610 and a
storage device (e.g., “secondary storage”
652) used to store secure database 610.”
Ex. 1002 at 226:20–23.
Pet. 45.
Patent Owner asserts that Petitioner impermissibly
maps two distinct claim terms, “processing circuitry”
and “microprocessor,” to the same CPU 654 of Ginter.
We agree. See Unique Concepts, Inc. v. Brown, 939
F.2d 1558, 1563 (Fed. Cir. 1991) (two distinct claim
elements should each be given full effect). Indeed, to
determine otherwise would impermissibly read one of
“processing circuitry” and “microprocessor” out of the
claim. See Tex. Instruments Inc. v. U. S. Int’l Trade
Comm’n, 988 F.2d 1165, 1171 (Fed. Cir. 1993)
(explaining claim language cannot be mere
surplusage, an express limitation cannot be read out
of the claim). Mapping both claim terms to CPU 654
of Ginter is especially problematic for the
“microprocessor” limitation, which reads, in context,

39a
“a microprocessor having software programming to
control the operation of the processing circuitry”
(Claim 1 (emphasis added)).
In making our determination, we acknowledge that
Ginter discloses “one or more conventional general
purpose central processing units (‘CPUs’) 654 . . . .” Ex.
1002, 185:21–22 (emphasis added). Accordingly, it is
plausible that Petitioner intended for one of CPUs 654
to correspond to the recited “processing circuitry” and
another of CPUs 654 to correspond to the recited
“microprocessor.” We are unpersuaded, however, that
Petitioner has articulated that intention with
sufficient particularity in the aforementioned portion
of the Petition. See 35 U.S.C. § 312(a)(2) (“A petition
filed under section 311 may be considered only if . . .
the petition identifies, in writing and with
particularity, each claim challenged, the grounds on
which the challenge to each claim is based, and the
evidence that supports the grounds for the challenge
to each claim
”).
The aforementioned portion of the Petition
concerning the recited “processing circuitry” also cites
to paragraph 158 of Mr. Wechselberger’s Declaration.
A portion of that paragraph reads as follows:
Ginter’s electronic appliance further
comprises an I/O controller for
processing and storing the data: “I/O
controller 660 permits CPU 654 and SPU
500 to read from and write to secondary
storage 662, keyboard/display 612, 614,
communications controller 666, and

40a
backup storage device 668.” A person of
ordinary skill in the art would
understand that the I/O controller is a
computer circuitry component that is
used to process and store the VDE
objects of Ginter in the secondary
storage.”
Ex. 1004 ¶ 158 (footnote omitted). According to the
above, Mr. Wechselberger appears to be mapping I/O
controller 660 of Ginter to the recited “processing
circuitry,” and not CPU 654. The relevant portion of
the
Petition, however, is unambiguous that Petitioner
considers CPU 654, and not I/O controller 660, as
corresponding to the recited “processing circuitry.” See
Pet. 42 (“The electronic appliance of Ginter further
comprises an I/O controller that ‘permits CPU 654 . . .
to read from and write to secondary storage 662,’ A
person of ordinary skill in the art would understand
that a CPU is processing circuitry.”). We rely on the
mapping set forth in the Petition. See 35 U.S.C. §
312(a)(2) (“A petition filed under section 311 may be
considered only if the petition identifies, in writing
and with particularity. ”) (emphasis added); 37
C.F.R. § 42.6(a)(3) (“Arguments must not be
incorporated by reference from one document into
another document.”).
For the foregoing reasons, we determine that
Petitioner has not demonstrated that it is more likely
than not that Petitioner would prevail in showing that

41a
at least one of claims 1, 9, 10, and 13–16 is
unpatentable on this ground.
C. Claims 1, 9, 10, and 13–16 as
Obvious Over Ginter and Stefik
Petitioner asserts that a combination of Ginter and
Stefik renders obvious claims 1, 9, 10, and 13–16. Pet.
54–67 (citing Exs. 1002–1004). Patent Owner
disagrees. Prelim. Resp. 45–51 (citing Exs. 1003,
2001). In particular, Patent Owner asserts that
Petitioner does not account adequately for the
“processing circuitry” and the “microprocessor” recited
in independent claim 1, and also that the ASIC chip of
processing means 1200 of Stefik cannot correspond to
the recited “microprocessor.” We agree with Patent
Owner.
Petitioner asserts that the following disclosures in
Stefik account for the recited “processing circuitry”:
Stefik teaches that the hardware of a
repository includes “processing means
1200 . . . comprised of a processor
element 1201 and processor memory
1202.” Ex. 1003 at 14:13–15. “The
processing
means
1201
provides
controller, repository transaction and
usage rights transaction functions for
the repository.” Id. at 14:15–17. Stefik
explicitly teaches that “repositories are
used to store digital works.” Id. at 6:57–
58. Claim 1 of Stefik includes the
element of a “storage means for storing
digital works having attached usage

42a
rights and fees.” Id. at 54:5–6. Moreover,
Claim 8 of Stefik also recites the step of
“storing said digital work and said
attached one or more usage rights in a
server repository.” Id. at 55:25–26. A
person of ordinary skill in the art would
understand that repository transactions
include processing and storing digital
data. Ex. 1004 at ¶ 216.
Pet. 55–56.
Petitioner further asserts that the following
disclosures in Stefik account for the recited
“microprocessor”:
As discussed above, Stefik teaches that
the hardware of a repository may
comprise a processing means. Ex. 1003 at
14:13–15. Stefik teaches that the
functional component of a repository “is
typically software executing on the
hardware embodiment.” Id. at 14:1–3.
This functional software “may be
embedded in the hardware embodiment
such as an Application Specific
Integrated Circuit (ASIC) chip.” Id. at
14:3–6. A person of ordinary skill in the
art would know that an ASIC chip is a
microprocessor. Ex. 1004 at ¶ 223. The
functional embodiment comprises “an
operating system 1301, core repository
services
1302,
usage
transaction
handlers 1303, repository specific

43a
functions, 1304 and a user interface
1305.” Ex. 1003 at 14:53–55. Stefik
further teaches that the operating
system “provide[s] the basic services for
controlling and interfacing between the
basic components of the repository.” Id.
at 14:59-61. As discussed above, the
basic components of the repository
include
processing
circuitry
and
playback circuitry. See supra at VI.C.1.d,
VI.C.1.f. Therefore, Stefik discloses
software to control the processing
circuitry and playback circuitry.
Pet. 58–59.
Patent Owner asserts that Petitioner impermissibly
maps two distinct claim terms, “processing circuitry”
and “microprocessor,” to the same processing means
1200 of Stefik. We agree. See Unique Concepts, 939
F.2d at 1563 (two distinct claim elements should each
be given full effect). Indeed, to determine otherwise
would impermissibly read one of “processing circuitry”
and “microprocessor” out of the claim. See Texas
Instr., 988 F.2d at 1171 (explaining that claim
language cannot be mere surplusage, an express
limitation cannot be read out of the claim). Mapping
both claim terms to processing means 1200 of Stefik is
especially problematic for the “microprocessor”
limitation, which reads, in context, “a microprocessor
having software programming to control the operation
of the processing circuitry” (Claim 1 (emphasis
added)).

44a
In making our determination, we acknowledge that
it is perhaps plausible that Petitioner is mapping
“processing circuitry” and “microprocessor” to
processing means 1200 and processor element 1201,
respectively, where processor element 1201 is a
component of processing means 1200. We are
unpersuaded,
however,
that
Petitioner
has
articulated that mapping with sufficient particularity
in the aforementioned portions of the Petition. See 35
U.S.C. § 312(a)(2) (“A petition filed under section 311
may be considered only if . . . the petition identifies, in
writing and with particularity, each claim challenged,
the grounds on which the challenge to each claim is
based, and the evidence that supports the grounds for
the challenge to each claim . . . .”). Moreover, as each
of “processing circuitry” and “microprocessor” are
recited as performing functions, if anything, it would
appear that both “processing circuitry” and
“microprocessor” should be mapped to processor
element 1201, which would still be deficient for the
reasons set forth above concerning processing means
1200.
Patent Owner also asserts that Petitioner maps the
ASIC chip of processing means 1200, which appears to
be the same as processor element 1201, of Stefik to the
recited “microprocessor,” but that an ASIC chip
cannot correspond properly to a “microprocessor.” We
agree. Patent Owner cites to a link to a webpage which
defines ASIC as follows:
(Application
Specific
Integrated
Circuit) Pronounced “a- sick.” A chip that
is custom designed for a specific

45a
application rather than a generalpurpose chip such as a microprocessor.
The use of ASICs improve performance
over general-purpose CPUs, because
ASICs are “hardwired” to do a specific job
and do not incur the overhead of fetching
and interpreting stored instructions.
Ex. 2003; see also Dictionary.com Unabridged,
Random
House,
Inc.
http://www.dictionary.com/browse/microprocessor
(accessed: June 12, 2017) (Ex. 3001) (microprocessor
is “an integrated circuit that performs all the
functions of a CPU”). Based on the above, we find that
an ASIC is not a microprocessor. Against this objective
evidence, Petitioner only provides a citation to
paragraph 223 of Mr. Wechselberger’s Declaration,
and the relevant portion of that paragraph merely
repeats the same line in the Petition, “[a] person of
ordinary skill in the art would know that an ASIC chip
is a microprocessor,” without further relevant
explanation or analysis.
For the foregoing reasons, we determine that
Petitioner has not demonstrated that it is more likely
than not that Petitioner would prevail in showing that
at least one of claims 1, 9, 10, and 13–16 is
unpatentable on this ground.
D. Conclusion
On this record, Petitioner has demonstrated
sufficiently “that it is more likely than not that at
least 1 of the claims challenged in the petition is
unpatentable.” We, thus, institute a covered business

46a
method patent review of claims 1, 9, 10, and 13–16 of
the ’437 patent, but only on the ground of
unpatentability based on 35 U.S.C. § 101.
III. ORDER
After due consideration of the record before us, and
for the foregoing reasons, it is:
ORDERED that, pursuant to 35 U.S.C. § 324, a
covered business method patent review is hereby
instituted as to claims 1, 9, 10, and 13–16 of the ’437
patent as unpatentable under 35 U.S.C. § 101;
FURTHER ORDERED that no other grounds are
instituted; and
FURTHER ORDERED that pursuant to 35 U.S.C. §
324(a), a covered business method patent review of
the ʼ437 patent is hereby instituted commencing on
the entry date of this Order, and pursuant to 35 U.S.C.
§ 324(d) and 37 C.F.R. § 42.4, notice is hereby given of
the institution of a trial.

47a
UNITED STATES PATENT AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL BOARD

______________
Case CBM2017-00019
Patent 7,840,437
DISH NETWORK CORPORATION, DISH NETWORK LLC,
PETITIONERS

v.
CUSTOMEDIA TECHNOLOGIES, LLC,
PATENT OWNER

______________
Entered: Jun. 12, 2017
______________
DECISION
Granting Institution of
Covered Business Method Patent Review
35 U.S.C. § 324(a) and 37 C.F.R. § 42.208
______________
PETRAVICK,
concurring.

Administrative

Patent

Judge,

I concur in the majority’s reasoning and conclusion
that the Petition does not demonstrate that it is more
likely than not that Petitioner would prevail in
showing that claims 1, 9, 10, and 13–16 are
unpatentable under 35 U.S.C. § 103 over Ginter and
Stefik.

48a
I also concur in the majority’s conclusion that the
Petition demonstrates that it is more likely than not
that Petitioner would prevail in showing that claims
1, 9, 10, and 13–16 are unpatentable under 35 U.S.C.
§ 101. I, however, respectfully disagree with the
majority’s amendment to the abstract idea set out in
the Petition. Petitioner asserts that the claims of the
’437 patent are directed to the abstract idea of
“delivering rented audio/video content to a user.” Pet.
28. The majority amended Petitioner’s abstract idea to
be “delivering rented audio/video electronic content to
a user.” The majority cited Patent Owner’s argument
concerning the processing circuity being set apart
from the microprocessor. See Prelim. Resp. 33–36. At
this stage of the proceeding, I do not agree that that
Patent Owner’s argument should be the basis for this
sua sponte amendment to the abstract idea set out in
the Petition.
For PETITIONER:
Eliot D. Williams
G. Hopkins Guy
Ali Dhanani
BAKER BOTTS LLP
eliot.williams@bakerbotts.com
hop.guy@bakerbotts.com
ali.dhanani@bakerbotts.com
For PATENT OWNER:
John R. Kasha
Kelly L. Kasha

49a
KASHA LAW LLC
john.kasha@kashalaw.com
kelly.kasha@kashalaw.com

50a
APPENDIX G
UNITED STATES PATENT AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL BOARD

____________
Case CBM2017-00019
Patent 7,840,437
DISH NETWORK CORPORATION, DISH NETWORK LLC,
PETITIONERS

v.
CUSTOMEDIA TECHNOLOGIES, LLC,
PATENT OWNER

____________
Entered: Jul. 25, 2018
____________
FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
____________
Before MEREDITH C. PETRAVICK, MICHAEL W.
KIM, and KALYAN K. DESHPANDE, Administrative
Patent Judges.
KIM, Administrative Patent Judge.

51a
I. INTRODUCTION
A. Background
DISH Network Corporation and DISH Network
L.L.C. (collectively, “Petitioner”) filed a Petition to
institute a covered business method patent review of
claims 1, 9, 10, and 13–16 U.S. Patent No. 7,840,437
(Ex. 1001, “the ’437 patent”) on grounds of
unpatentability under 35 U.S.C. §§ 101, 103. Paper 1
(“Pet.”). Customedia Technologies, L.L.C. (“Patent
Owner”) filed a Preliminary Response. Paper 6
(“Prelim. Resp.”).
On June 12, 2017, we instituted an inter partes
review of claims 1, 9, 10, and 13–16, but only on the
ground of unpatentability under § 101 set forth in the
Petition. Paper 11 (“Dec.”). After institution of trial,
Patent Owner filed a Patent Owner Response (Paper
21, “PO Resp.”) and Petitioner filed a Reply (Paper 32,
“Pet. Reply”). With authorization, Patent Owner filed
a Sur-Reply (Paper 42, “PO Sur.”) and Petitioner filed
a Sur-Sur-Reply (Paper 43, “Pet. Sur.”).
An oral hearing was held on March 5, 2018. Paper
48 (“Tr.”). On May 2, 2018, in view of SAS Inst., Inc.
v. Iancu, 2018 WL 1914661, at *10 (U.S. Apr. 24,
2018), the we modified our Decision on Institution to
institute on all of the grounds set forth in the Petition.
Paper 49. Patent Owner filed a Supplemental Brief
Regarding Board’s Decision to Institute Review of All
Challenged Claims, asserting, “with respect to the
newly instituted grounds, Patent Owner hereby
incorporates by reference the arguments in its
Preliminary Response (Paper 6) and the Board’s

52a
reasons in the Institution Decision (Paper 11) for
denying institution of those grounds.” Paper 51, 2
(“PO Supp.”). On June 1, 2018, in view of SAS Inst.,
Inc., the Chief Administrative Patent Judge
“determined that good cause exists to extend the oneyear period for issuing a Final Written Decision.”
Paper 52. On June 15, 2018, Petitioner submitted a
Supplemental Reply Regarding Newly Instituted
Grounds. Paper 55 (“Pet. Supp.”).
We have jurisdiction under 35 U.S.C. § 6. In this
Final Written Decision, after reviewing all relevant
evidence and assertions, we determine that Petitioner
has met its burden of showing, by a preponderance of
the evidence, that claims 1, 9, 10, and 13–16 of the
’437 patent are unpatentable.
B. Related Proceedings
Petitioner and Patent Owner identify the following
district court proceeding concerning the ’437 patent:
Customedia Technologies, L.L.C v. DISH Network
L.L.C., Civil Action No. 2:16-CV-00129 (E.D. Tex).
Pet. 1; Paper 5, 2. The following proceeding, before the
Board, also involves the same parties and the ’437
patent: IPR2017-00936 (institution denied). U.S.
Patent No. 8,955,029 (“the ’029 patent”) is related by
continuity to the ’437 patent, and the ’029 patent is
involved in the following proceedings before the
Board, and also involves the same parties: CBM201700031 (terminated), IPR2017-00638 (terminated),
IPR2017-00639 (terminated).

53a
C. Standing
Section 18 of the American Invents Act governs the
transitional program for covered business method
patent reviews. Leahy-Smith America Invents Act
(“AIA”) § 18, Pub. L. No. 112-29, 125 Stat. 284, 329–
31 (2011); see also 37 C.F.R. §§ 42.300–304 (2016)
(setting forth the rules governing the transitional
program for covered business method patents).
Section 18(a)(1)(B) of the AIA limits such reviews to
persons, or their privies, that have been sued or
charged with infringement of a covered business
method patent. See also 37 C.F.R. § 42.302 (setting
forth who may petition for a covered business method
patent review). Petitioner asserts that, because it has
been sued for infringement of the ’437 patent, it has
standing to file this Petition. Pet. 2 (citing Exs. 1005,
1008). Based on the record before us, we agree.
D. The ’437 patent
The ’437 patent discloses that the claimed invention
relates generally to “renting or purchasing data
products for immediate, on-demand delivery, which
may be formatted and transferred to a portable
medium for use in any existing playback device.” Ex.
1001, 1:29–33. According to the ’437 patent, an
“information explosion” has created “a serious need
for an integrated system that manages and handles
the growing amount of information available over the
various data feeds and can meet the needs and desires
of the end user.” Ex. 1001, 1:59–62. The ’437 patent
purports to solve these problems as follows:

54a
The current invention solves these
problems through the use of an
integrated information management and
processing system that provides for the
handling, sorting and storage of large
amounts of data that is a user-defined
and user resident environment. It allows
this management to occur both during
and after the actual feed is being
received, while also allowing various
decisions to be made about the
suitability, quality, and other content of
the information being received. The
invention also has the capability to be
securely accessed and utilized from a
remote location, including telephone,
Internet,
and
remote
computer/television access. This would
allow services to provide virtual user
transaction zones.
Ex. 1001, 3:19–30.
E. Illustrative Claim
Petitioner challenges claims 1, 9, 10, and 13–16 of
the ’437 patent. Claim 1, the only independent claim,
is illustrative of the challenged claims, and is
reproduced below:
1. A system for the processing,
recording, and playback of audio or video
data, comprising:

55a
a. a receiver apparatus for receiving
audio or video data from at least one data
feed;
b. memory circuitry comprising a
storage device built in to the system and
which is not removable from the system;
c. processing circuitry for processing
the data and for storing the processed
data in the built in storage device;
d. a
user
interface
operatively
connected to the processing circuitry for
programming
which
processing
functions are to be applied to the
received data by the processing circuitry;
e. playback circuitry, which reads the
data from the built in storage device and
which converts the data to electronic
signals for driving a playback apparatus;
and
f. a microprocessor having software
programming to control the operation of
the processing circuitry and the playback
circuitry enabling the recording of rented
data and enacting a simulated return of
said rented data by deleting or
scrambling said data from said built in
storage device or blocking further access
to said data, and notifying a data
supplier of said simulated return.

56a
F. Covered Business Method Patent
Section 18(d)(1) of the AIA defines a covered
business method patent as “a patent that claims a
method or corresponding apparatus for performing
data processing or other operations used in the
practice, administration, or management of a
financial product or service, except that the term does
not include patents for technological inventions.” See
also 37 C.F.R. § 42.301(a) (stating the same). To
determine whether a patent is a covered business
method patent, “§ 18(d)(1) directs us to examine the
claims when deciding whether a patent is a [covered
business method] patent.” Blue Calypso, LLC v.
Groupon, Inc., 815 F.3d 1331, 1340 (Fed. Cir. 2016)
(stating that “the claims at issue in the instant case
have an express financial component in the form of a
subsidy, or financial inducement, that encourages
consumers to participate in the distribution of
advertisements”); Unwired Planet, LLC v. Google,
Inc., 841 F.3d 1376, 1382 (Fed. Cir. 2016) (“CBM
patents are limited to those with claims that are
directed to methods and apparatuses of particular
types and with particular uses ‘in the practice,
administration, or management of a financial product
or service.’”).
In our Institution Decision, we determined that
Petitioner had shown that the ’437 patent is eligible
for CBM review. Dec. 5–11. Patent Owner urges us to
reconsider and determine that the ’437 patent is not
eligible for CBM review. See PO Resp. 1–41. We,
however, are not persuaded to change our original
determination.

57a
1. Financial Product or Service
Petitioner asserts that “[t]he claims here are
directed to video-ondemand (‘VOD’) service, which is
a well-known method for distributing digital content
to subscribers for payment of a fee.” Pet. 5; emphasis
added. “In particular, the claims recite a system for
processing audio/video data that is ‘rented data.’” Pet.
6 (citing Ex. 1001, 46:31–34) (emphasis added).
In our Decision on Institution, we found the
following:
Contrary to Patent Owner’s argument,
the claims of the ’437 patent do explicitly
recite a financial activity—renting or
purchasing data. Dependent claim 17
recites “wherein said system includes an
electronically based payment system
making rental charges to a user’s credit
or debit account.” Dependent claim 18
recites “wherein said credit or debit
account comprises a credit card account,
a checking account, or an ATM account.”
Dependent claim 27 recites “said
software programming further enabling
access to an Internet based subscription
service and automatic downloading of
data for rental or purchase.”
Dec. 6–7. In doing so, we also indicated the following
in a footnote: “We acknowledge that Petitioner does
not rely expressly on dependent claims 17, 18, and 27
for the first prong. See generally Pet. 3–7. Patent
Owner will have the opportunity to respond during

58a
trial.” Dec. 7, n. 3. After institution of trial, Patent
Owner disclaimed claims 17, 18, and 27. PO Resp. 15
(citing Ex. 2004). Patent Owner presents several
assertions with respect to relying on these now
disclaimed claims as the jurisdictional basis for
conducting a covered business method review. PO
Resp. 2–18.
a. Statutory and Regulatory Jurisdiction
Patent Owner first asserts that the Board’s analysis,
with respect to dependent claims 17, 18, and 27, were
not based on arguments set forth in the Petition,
exceeded statutory jurisdiction, was inconsistent with
the express language of 35 U.S.C. § 324 and 37 C.F.R.
§ 42.208(c), was raised improperly sua sponte, and
presents substantial due process issues. PO Resp. 2–
8, 14–15. Patent Owner asserts further that the
express language of 35 U.S.C. § 324 and 37 C.F.R. §
42.208(c) supports their position. PO Resp. 2–8, 14–
15. Petitioner disagrees generally, and, with respect
to Patent Owner’s assertions concerning statutory
and regulatory language, responds as follows:
Patent Owner cites to the Supreme
Court’s decision in Cuozzo Speed
Technologies, LLC v. Lee for the
proposition that the Board’s decision to
institute CBM review is limited to the
particular language used by petitioner in
its petition. PO Response at 3. To the
contrary, as noted above, Cuozzo rejected
that argument and affirmed the PTAB’s
decision to institute an IPR as to claims

59a
not specifically mentioned as being
challenged in the petition. See also In re
Cuozzo Speed Techs., LLC, 793 F.3d
1268, 1274 (Fed. Cir. 2015). Moreover,
Patent Owner’s statutory analysis is
flawed because the sections it cites relate
to grounds for unpatentability, not for
CBM eligibility. See PO Response at 4–5.
Pet. Reply 3–4. We agree with Petitioner.
i. Applicable Law
We do not read the express language of 35 U.S.C. §
324 and 37 C.F.R. § 42.208(c) in the limited manner
advocated by Patent Owner. The relevant language of
35 U.S.C. § 324 is as follows:
The Director may not authorize a postgrant review to be instituted unless the
Director determines that the information
presented in the petition filed under
section 321, if such information is not
rebutted, would demonstrate that it is
more likely than not that at least 1 of the
claims challenged in the petition is
unpatentable.
As an initial matter, and as noted by Petitioner, the
language of 35 U.S.C. § 324 only speaks, with explicit
specificity, to unpatentability. The instant issue is
jurisdiction.1
Our analysis is the same with respect to 37 C.F.R.
§ 42.208(c).
1

60a
We agree with Patent Owner that a decision on
institution, even concerning jurisdiction, should
certainly be based on information presented in the
petition. It does not follow, however, that a decision on
institution is narrowly limited to information
expressly identified only within the four corners of the
petition, for the reasons set forth below.
We begin our analysis with the wording of 35 U.S.C.
§ 324, which, in relevant part, recites “the information
presented in the petition filed under section 321, if
such information is not rebutted . . . .” By its express
wording, the statute contemplates taking into account
rebuttal information, which, by all accounts, is the
information set forth in the preliminary response to
the petition. See 35 U.S.C. § 323 (explaining that a
preliminary response may “set[ ] forth reasons why no
post-grant review should be instituted based upon the
failure of the petition to meet any requirement of this
chapter.”). Information set forth in a preliminary
response to the petition is not narrowly limited to
information expressly identified only within the four
corners of the petition.2 In particular, a preliminary
response may raise issues relevant to institution that
a petition may not have raised.

The relevant portion of the corresponding statute
for inter partes review reads as follows: “the
information presented in the petition filed under
section 311 and any response filed under section 313 .
. . .” 35 U.S.C. § 314(a).
2

61a
A latter portion of 35 U.S.C. § 324 recites, in relevant
part, determining whether the information presented
in the petition “would demonstrate that it is more
likely than not that at least 1 of the claims challenged
in the petition is unpatentable.” The use of the word
“would” indicates that the decision on institution is a
prediction in the future as to whether or not a claim
will be held unpatentable, and within the context of
the other relevant statutes, the point in time for which
such a prediction is being made is at the time of final
written decision. See 35 U.S.C. § 328(a). Under 35
U.S.C. § 326(a)(11), such a final written decision must
be rendered within a specified time period following
the decision on institution. During that specified time
period, 35 U.S.C. § 326 contemplates a myriad of
evidence and papers to be potentially entered, and
considered, in coming to a final written decision. See,
e.g., 35 U.S.C. § 326(a)(3) (supplemental information),
(a)(4) (evidence from discovery), (a)(8) (patent owner
response with affidavits or declarations, and “any
additional factual evidence and expert opinions”).
Accordingly, when all of the above is considered
together, a decision on institution is made, certainly
based on the information presented in the petition,
but also with a prediction as to the information that
may be submitted during trial, for example, the
evidence and papers enumerated above. Such
evidence and papers are not narrowly limited to
information expressly identified only within the four
corners of the petition.
In that respect, the guidance from Cuozzo is
consistent and instructive. Specifically, in Cuozzo, the

62a
Supreme Court set forth the procedural posture of the
proceeding, as follows:
The Board agreed to reexamine claim
17, as well as claims 10 and 14. The
Board recognized that Garmin had not
expressly challenged claim 10 and claim
14 on the same obviousness ground. But,
believing that “claim 17 depends on
claim 14 which depends on claim 10,” the
Board reasoned that Garmin had
“implicitly” challenged claims 10 and 14
on the basis of the same prior inventions,
and it consequently decided to review all
three claims together. App. to Pet. for
Cert. 188a.
Cuozzo Speed Technologies, LLC v. Lee, 136 S. Ct.
2131, 2138 (2016). While certainly any analysis of
whether to institute review must be based on the
petition, the decision to institute may also be based on
information that implicitly flows from the information
set forth in the petition. Given the patent is evidence
squarely before us, implicitly flowing from every
petition challenging a patent is the information
contained within the patent itself. In other words,
when a petition is filed against a patent, the patent is
evidence, and it is not unreasonable to expect Patent
Owner to be familiar with all of the information
contained in the patent, which would include all
dependent claims, challenged in the petition or
otherwise. Cf. Riverwood Intern. Corp. v. R.A. Jones &
Co., Inc., 324 F.3d 1346, 1355 (Fed. Cir. 2003) (quoting
Reading & Bates Const. Co. v. Baker Energy Resources

63a
Corp., 748 F.2d 645, 650 (Fed. Cir. 1984) (“‘It is
common sense that an inventor, regardless of an
admission, has knowledge of his own work.’”). In that
respect, we note that Section 18(d)(1) of the AIA
defines a covered business method patent as “a patent
that claims . . . ,” and does not recite any further
requirements concerning the nature of the claim, e.g.,
that the claim must be explicitly challenged in the
petition. See also Transitional Program for Covered
Business Method Patents—Definitions of Covered
Business Method Patent and Technological Invention,
77 Fed. Reg. 48,734, 48,736 (Aug. 14, 2012) (Comment
8) (“A patent having one or more claims directed to a
covered business method is a covered business method
patent for purposes of the review, even if the patent
includes additional claims.”).
ii. Analysis
As set forth above, we disagree with Patent Owner
that a decision on institution is narrowly limited to
information expressly identified only within the four
corners of the petition, because Patent Owner ignores
the statutory language “based.” When the actual
statutory language is applied, it is clear that our
identification of dependent claims 17, 18, and 27 is
based on information expressly identified in the four
corners of the Petition. More specifically, Petitioner
asserts that “[t]he claims here are directed to videoondemand (‘VOD’) service, which is a well-known
method for distributing digital content to subscribers
for payment of a fee.” Pet. 5. Here, Petitioner refers to
“claims” in the plural. See also Pet. 5 (“Just as in
SightSound, the claims of the ’437 patent fall squarely

64a
within the statutory definition of a covered business
method patent . . . .) (latter emphasis added). By
identifying “claims” in the plural, Petitioner is
referring, explicitly, to more than one claim. Patent
Owner acknowledges that Petitioner is referring to
plural claims. PO Resp. 29 (“The elements of Claims
1, 9, 10, and 13–16 of the ’437 patent cited by
Petitioner are not express financial components that
are central to the operation of the claims.”).
The aforementioned sentence from the Petition that
refers to “claims” in the plural is, furthermore, set
forth under the following heading: “The ’437 patent’s
Claims are Directed to Financial Transactions.” Pet. 3
(emphasis added). The Petition’s analysis cites case
law that “[t]he ‘presence of a single claim is sufficient
to institute a covered business method review.’” Pet.
3–4 (citing SAP America, Inc. v. Versata Development
Group, Inc., CBM2012-00001, No. 36 at p. 26 (PTAB
Jan. 9, 2013)). We read that, in the aggregate, as
asserting, explicitly, that any one of the plurality
claims of the ’437 patent is a proper basis for CBM
eligibility.3
The Petition then asserts the following: “In
particular, the claims recite a system for processing
audio/video data that is ‘rented data.’” Pet. 6 (citing
Ex. 1001, 46:31–34) (emphasis added). As an initial
matter, we note that the sentence begins with the
In some respects, it is appropriate to end our
inquiry concerning the Petition’s identification of
dependent claims 17, 18, and 27 here.
3

65a
phrase “[i]n particular,” indicating that whatever
follows is merely an example, and not an exclusive
identification, of language in a claim of the ’437 patent
that Petitioner asserts may meet the financial prong
of CBM eligibility. The citation to the ’437 patent is to
language in independent claim 1. Each of the rest of
the claims in the ’437 patent, i.e., claims 2–29, depend,
either directly or indirectly, from independent claim
1, and accordingly, also include the language of
independent claim 1. While Petitioner’s assertions
concerning this issue begin on page 3 of the Petition,
the first time the Petition refers only to independent
claim 1 is not until page 6 of the Petition. Pet. 6
(“Claim 1 also recites the step of ‘enacting a simulated
return of said rented data.’ Id. at 46:34.”). Accordingly,
the Board reads the above portions of the Petition,
collectively, as, at a minimum, implicitly referring to
all of claims 1–29 of the ’437 patent.
We acknowledge that the only claim limitations
cited expressly, on pages 3–7 of the Petition, are from
independent claim 1. In construing “rented data,”
however, the construction for which is set forth below,
the Board considered the entire patent, which
includes each and every one of claims 1–29. Phillips v.
AWH Corp., 415 F.3d 1303, 1313 (Fed. Cir. 2005) (en
banc) (claim construction requires a determination as
to how a person of ordinary skill in the art would
understand a claim term “in the context of the entire
patent, including the specification.”). Given the above,
the Board was led to, and did indeed read, each and
every claim. The limitations identified expressly by
Petitioner are “rented data” and “enacting a simulated

66a
return of said rented data.” Pet. 6. With respect to
“rented data,” the Petition provides the following
analysis:
This understanding of “rented data” is
confirmed by the specification. The
Summary of the Invention states that an
object of the patent “is to provide a
system that creates a transaction or
commercial zone for data to be
received, manipulated, stored, retrieved,
and accessed by a user.” Ex. 1001 at
3:34–37 (emphasis added). The system
may be used to “[p]urchase or rent
data products (movie, TV show, etc.).” Id.
at 4:15 (emphasis ‘virtual store’ for
purchasing and/or renting audio/video
products or computer software on
demand.” Id. at 4:59–61 (emphases
added). Payment for these rentals may
be made using “Visa, MasterCard,
Discover, American Express, Diner’s
Club, or any other credit card or banking
institution that offers credit or debit
payment systems.” Id. at 4:28–31.
Pet. 6. Although this portion of the Petition only refers
expressly to the Specification, the Board,
nevertheless, read all of the claims with a Petitiondriven emphasis on the express claim terms “rented
data,” but also with an awareness of other claim terms
identified expressly in the Petition as related to
“rented data,” among them, “transaction,” “purchase,”
“rent,” “credit card,” and “credit or debit account.” Cf.

67a
In re NuVasive, 841 F.3d 966, 971–972 (Fed. Cir.
2016) (“Although the Board is not limited to citing
only portions of the prior art specifically drawn to its
attention . . . , [Patent Owner] was entitled to an
adequate opportunity to respond . . . .”).
Furthermore, the Petition presents “rented data” in
a claim construction context, both expressly (Pet. 21)
and implicitly (Pet. 5–7). As a part of construing
“rented data,” the Board considers all relevant
portions of the specification, cited expressly or
otherwise, which includes all dependent claims. Given
that guidance from the Petition, the Board identified
dependent claims 17, 18, and 27, each of which
includes one or more of the aforementioned claim
terms, and set forth that identification expressly in
the Decision on Institution, and noted, also, and
expressly, that “Patent Owner will have the
opportunity to respond during trial.” Dec. 7, n. 2.
Furthermore, Patent Owner asserts the following:
For the Board to institute CBM review
on the basis of dependent claims not
identified in the petition and then find
that the patent owner’s disclaimer was
too late is arbitrary and capricious, and
a due process concern.
PO Resp. 15. For the reasons set forth above, we are
unpersuaded our identification of dependent claims
17, 18, and 27 was not based on information expressly
identified in the four corners of the Petition.
Furthermore, due process requires notice and an
opportunity to be heard by an impartial decision-

68a
maker. Abbott Labs. v. Cordis Corp., 710 F.3d 1318,
1328 (Fed. Cir. 2013). As formal administrative
adjudications, AIA trial proceedings are subject to the
Administrative Procedure Act (“APA”). SAS Institute,
Inc. v. ComplementSoft, LLC, 825 F.3d 1341, 1351
(Fed. Cir. 2016). Under the APA, the Board must
inform the parties of “the matters of fact and law
asserted.” 5 U.S.C. § 554(b)(3). It also must give the
parties an opportunity to submit facts and arguments
for consideration. Id. § 554(c). Each party is entitled
to present oral and documentary evidence in support
of its case, as well as rebuttal evidence. Id. § 556(d).
Here, in compliance with the Administrative
Procedure Act, notice concerning facts and law
applicable to this issue were expressly set forth on
pages 6–8 of the Decision on Institution. Dec. 6–7
(expressly identifying claims and applicable case law,
and stating, “Patent Owner will have the opportunity
to respond during trial.”). As stated, Patent Owner
has been provided the “opportunity to submit facts
and arguments for consideration” on this issue, for
example, in its Patent Owner Response. In fact,
Patent Owner has done so. See PO Resp. 1–18.
Accordingly, we are not persuaded by Patent Owner’s
argument directed towards a due process violation.
iii. Conclusion
For the above reasons, we are unpersuaded, by
Patent Owner’s assertions that the Board’s analysis,
with respect to dependent claims 17, 18, and 27, were
not based on arguments set forth in the Petition,
exceeded statutory jurisdiction, was inconsistent with

69a
the express language of 35 U.S.C. § 324 and 37 C.F.R.
§ 42.208(c), was improperly raised sua sponte, and
presents substantial due process issues. 4
b. Effect of Disclaimer
Patent Owner asserts that, regardless of whether or
not dependent claims 17, 18, and 27 meet the finance
prong for CBM eligibility, because Patent Owner
disclaimed those claims, pursuant to 35 U.S.C. § 253,
those claims must be treated as never having existed,
and cannot constitute the basis for CBM eligibility.
PO Resp. 8–18. Patent Owner asserts further that, in
as much as Petitioner may rely on J.P. Morgan Chase
& Co. v. Intellectual Ventures II LLC, Case No.
CBM2014-00157, (PTAB Jan. 12, 2016) (Paper 40) for
the proposition that post-institution disclaimers
should be treated differently, the reasoning in J.P.
Morgan Chase is erroneous, and should not be
followed. Petitioner does cite J.P. Morgan Chase, and
also asserts the following:
Patent
Owner
compounds
its
misapplication of law by arguing that
post-institution disclaimer of claims
strips the Board of its authority to
consider those claims. PO Response at 8–
We provided notice of the following in a footnote of
the Decision on Institution: “We acknowledge that
Petitioner does not rely expressly on dependent claims
17, 18, and 27 for the first prong. See generally Pet. 3–
7. Patent Owner will have the opportunity to respond
during trial.” Dec. 7, n. 3.
4

70a
18. This argument is also foreclosed by
the Board’s precedential decision in
Facebook, Inc. v. Skky, CBM2016-00091
(Paper 12) (PTAB Sep. 28, 2017). There,
an expanded panel held that CBM
eligibility is “determined based on the
claims of the challenged patent as they
exist at the time of the decision
whether to institute.” Id. at 6.
...
Even more, the Federal Circuit has
recently affirmed the Board’s authority
to issue an adverse judgement against a
Patent Owner who disclaimed claims
even before institution. Arthrex, Inc. v.
Smith & Nephew, Inc., ___ F.3d ___, No.
2017-1239, 2018 WL 522366, at *4 (Fed.
Cir. Jan. 24, 2018) (“37 C.F.R. § 42.73(b)
permits the Board to enter an adverse
judgment when a patent owner cancels
all claims at issue after an IPR petition
has been filed, but before an Decision on
Institution.”). Thus, binding authority of
both the Federal Circuit and the Board
establish that the jurisdiction over this
CBM proceeding is proper.
Pet. Reply 3–4 (footnote omitted). On the merits, we
agree with Petitioner.
i. Applicable Law
In our Decision on Institution, we indicated:

71a
A patent need have only one claim
directed to a covered business method to
be eligible for review. See Transitional
Program for Covered Business Method
Patents—Definitions
of
Covered
Business
Method
Patent
and
Technological Invention, 77 Fed. Reg.
48,734, 48,736 (Aug. 14, 2012) (Comment
8); see also Emerson Electric. Co. v.
SIPCO LLC, Case CBM2016-00095, slip
op. at 7 n.2 (PTAB Jan. 23, 2017) (Paper
12) (“Although the patentability of
claims 3 and 4 are not challenged by
Petitioner in this proceeding, there is no
requirement that only challenged claims
may be considered for purposes of
determining a patent is eligible for
covered business method patent review.
As discussed above, a patent is eligible
for review if it has at least one claim
directed to a covered business method.
77 Fed. Reg. at 48,736 (Response to
Comment 8).”).
Dec. 7–8. Since our Decision, a final written decision
has issued in Emerson Electric. Emerson Electric. Co.
v. SIPCO LLC, Case CBM2016-00095, (PTAB Jan. 16,
2018) (Paper 39).5 Furthermore, the Board identified
more relevant case law in our Order of August 9, 2017.
Paper 17 (citing Rembrandt Wireless Technologies, LP
A copy of the final written decision in that
proceeding has been entered as Exhibit 3003.
5

72a
v. Samsung Electronics Co., Ltd., 853 F.3d 1370,
1383–84 (Fed. Cir. 2017); J.P. Morgan Chase, slip op.
at 9–15; Facebook, Inc. v. Skky, LLC, Case CBM201600091, slip op. at 8–12 (PTAB Sept. 28, 2017) (Paper
12) (precedential); Westlake Services, LLC v. Credit
Acceptance Corp., Case CBM2014-00176 slip op. at 2–
5 (PTAB Sept. 3, 2015) (Paper 41)).
Belated post-institution disclaimer of claims reciting
a “financial activity element” does not affect our CBM
patent review eligibility determination. “CBM patent
review eligibility is determined based on the claims of
the challenged patent as they exist at the time of
the decision whether to institute.” Facebook, slip
op. at 11 (emphasis added). Section 18(a)(1)(E) of the
AIA provides that “[t]he Director may institute a
transitional proceeding only for a patent that is a
covered business method patent” (emphases added).
Section 18(d)(1) of the AIA defines a “covered business
method patent” as “a patent that claims a method or
corresponding apparatus for performing data
processing or other operations used in the practice,
administration, or management of a financial product
or service” (emphasis added). Hence, the decision
whether to institute a CBM patent review is based on
whether a patent “is” a covered business method
patent, which in turn is based on what the patent
“claims” at the time of the Decision on Institution—not
as the claims may exist at some later time after
institution. See Facebook, slip op. at 6. In other words,
Facebook instructs us as to the effect of disclaimed
claims at the time of the decision to institute review,
but does not instruct us as to the treatment of

73a
disclaimed claims after a patent has been determined
to be eligible for CBM review and a trial has been
instituted.
When the relevant claims are a part of the relevant
patent at the time of the decision on institution, they
may be considered in determining whether that
patent is eligible for CBM patent review at the time of
institution. Any belated disclaimer is an improper
attempt to seek the specific relief set forth in 37 C.F.R.
§ 42.207 without complying with the rule’s timeliness
requirement. Specifically, under 37 C.F.R. § 42.207
titled “Preliminary response to petition,” a “patent
owner may file a preliminary response to the petition
. . . setting forth the reasons why no post grant review
should be instituted.” The rule also provides that
“[t]he patent owner may file a statutory disclaimer
under 35 U.S.C. 253(a) in compliance with § 1.321(a)
of this chapter, disclaiming one or more claims in the
patent,” and “[n]o post-grant review will be instituted
based on disclaimed claims.” In short, when a patent
owner timely files a statutory disclaimer before
institution, “[n]o post-grant review will be instituted
based on disclaimed claims.”
Disclaimed claims are not considered in determining
whether a patent is eligible for CBM patent review if
a patent owner timely files a statutory disclaimer
before institution. See Facebook, slip op. at 4 (denying
institution on the sole ground that the patent is not
eligible for CBM patent review because, when the
patent owner filed a statutory disclaimer before its
preliminary response, the panel treated the
disclaimed claims as if they never existed and declined

74a
to consider petitioner’s arguments that were based on
the disclaimed claims). In such a situation, the Board
and parties can avoid the cost and expense of the
instant trial, assuming no other claim can provide
standing.
The Board’s rules are “construed to secure the just,
speedy, and inexpensive resolution of every
proceeding.” 37 C.F.R. § 42.1(b). The rules, including
35 C.F.R. §§ 42.1(b) and 42.207, were promulgated
with the consideration of “the effect of any such
regulation on the economy, the integrity of the patent
system, the efficient administration of the Office, and
the ability of the Office to timely complete proceedings
instituted under this chapter.” 35 U.S.C. § 326(b). We
decline to construe our rules and procedures to
encourage dilatory tactics.
A patent owner’s reliance on 35 U.S.C. § 253, to
persuade us that post-institution claim disclaimer can
eliminate our CBM jurisdiction, is misplaced. While
our reviewing court has “held that a disclaimer
relinquishes the rights of the patent owner,” its
“precedent and that of other courts have not readily
extended the effects of disclaimer to situations where
others besides the patentee have an interest that
relates to the relinquished claims.” Rembrandt
Wireless Techs., 853 F.3d at 1383−84. That is relevant
here because a denial of institution does not affect a
petitioner’s position, in that petitioner is still free to
challenge the patent in other forums, such as district
court, and on all grounds. But, after institution of a
CBM patent review, we are required by 35 U.S.C §
328(a) “to issue a final written decision with respect to

75a
the patentability of” the challenged claims in the
instituted CBM patent review. Once that final written
decision is issued, petitioner is subject to certain
estoppels. AIA § 18(a)(1)(D) (“The petitioner . . . may
not assert, either in a civil action . . . or in a proceeding
before the International Trade Commission . . . that
the claim is invalid on any ground that the petitioner
raised during that transitional proceeding.”).
Accordingly, because, after institution, both the
petitioner and the Board also have interests that
relate to the relinquished claims (Rembrandt Wireless
Techs., 853 F.3d at 1383−84), we are persuaded that
related post-institution disclaimer of claims reciting a
“financial activity element” does not affect our CBM
patent review eligibility determination. Cf. Guinn v.
Kopf, 96 F.3d 1419, 1422 (Fed. Cir. 1996) (holding
disclaimer of an allegedly interfering claim did not
divest the Board of jurisdiction over the declared
interference proceeding).
ii. Analysis
There is no dispute that dependent claims 17, 18,
and 27 were not disclaimed at the time of institution.
Compare Dec. 7 (entered June 12, 2017); Ex. 2004
(entered Aug. 3, 2017). Accordingly, their
consideration in determining whether the ’437 patent
is CBM eligible, at the time of institution, was proper,
and the subsequent disclaimer does not deprive us of
jurisdiction here.

76a
c. Whether Any Claim Contains
“Express Financial Component”
Patent Owner asserts that the ’437 patent claim
elements neither contain “an express financial
component,” nor claim “selling” or “renting” data. PO
Resp. 18–32. Patent Owner, however, largely limits
their analysis to independent claim 1 only. 6 After
reviewing all of the relevant assertions and evidence
anew, we see no reason to alter the following analysis,
set forth in our Decision on Institution.
Contrary to Patent Owner’s argument,
the claims of the ’437 patent do explicitly
recite a financial activity—renting or
purchasing data. Dependent claim 17
recites “wherein said system includes an
electronically based payment system
making rental charges to a user’s credit
or debit account.” Dependent claim 18
recites “wherein said credit or debit
account comprises a credit card account,
a checking account, or an ATM account.”
Dependent claim 27 recites “said
software programming further enabling
access to an Internet based subscription
service and automatic downloading of
data for rental or purchase.”
Dec. 6–7.

Patent Owner does refer, in passing, to dependent
claims 9, 10, and 13–16. PO Resp. 29.
6

77a
d. Whether Independent Claim 1 Contains
“Express Financial Component”
Petitioner asserts that “[t]he claims here are
directed to video-on-demand (‘VOD’) service, which is
a well-known method for distributing digital content
to subscribers for payment of a fee.” Pet. 5. “In
particular, the claims recite a system for processing
audio/video data that is ‘rented data.’” Pet. 6 (citing
Ex. 1001, 46:31–34). Petitioner further asserts that
“[c]laim 1 also recites the step of “enacting a simulated
return of said rented data.” Pet. 6 (citing Ex. 1001,
46:34) “A person of ordinary skill in the art at the time
of the purported invention of the ’437 patent would
understand that ‘renting’ content involved exchanging
money for temporary access to material.” Pet. 6 (citing
Ex. 1004 ¶ 106). “The electronic sale of something,
including charging a fee to a party’s account, is a
financial activity, and allowing such a sale amounts to
providing a financial service.” Pet. 5 (citing Apple Inc.
v. Sightsound Technologies, LLC, Case CBM201300023, slip op. at 13 (PTAB Oct. 8, 2013) (Paper 12)).
Patent Owner asserts that “[a] patent claim is not
directed to a covered business method merely because
it contains a limitation for rented data.” PO Resp. 24.
Instead, Patent Owner asserts that the claim must
recite elements that are “an express financial
component that is central to the operation of the
claimed invention.” PO Resp. 28. To that end,
concerning “rented data,” Patent Owner asserts the
following:

78a
To the contrary, “rented data” in the
claims is used in reference to a simulated
return that deletes or scrambles the
data, or blocks access to the data on a
storage device. See, e.g., infra Part
IV.B.1.b. Deleting, scrambling, and
blocking data are not financial activities.
Such use of rented data does not give
rise to a CBM review. As the Unwired
Planet court found, “it cannot be the case
that a patent covering a method and
corresponding apparatuses becomes a
CBM patent because its practice could
involve a potential sale of a good or
service. All patents, at some level, relate
to potential sale of a good or service.”
Unwired Planet, 841 F.3d at 1382. As a
result, that the term “rented data” could
involve a potential sale or exchange of
money for that rented data is not enough
to render Claim 1 a CBM under the law.
Absent an express limitation about the
actual sale of the rented data in an
invention where that sale is an express
financial component central to the
operation of the invention, the claims
cannot be found to be directed to a
financial activity.
PO Resp. 28. Patent Owner asserts further that,
unlike the claims in SightSound, independent claim 1
does not recite the actual act of “selling” or “renting”
data. PO Resp. 29–30.

79a
Petitioner replies that Patent Owner’s proffered
standard is too narrow, in that while a claim must
contain, “‘however phrased, a financial activity
element,’ . . . [t]he Federal Circuit has never held that
the financial element must be ‘central’ to the claims .
. . .” Pet. Reply 4–5 (citing Secure Axcess, LLC v. PNC
Bank National Association, 848 F.3d 1370, 1381 (Fed.
Cir. 2017) vacated as moot 2018 WL 2186184 (Mem)
*1). 7 Petitioner further replies that, even under
Patent Owner’s erroneous standard, the limitation of
“rented data,” recited in independent claim 1, meets
that standard, because, as Patent Owner’s own expert
Petitioner presents the language “financial activity
element,” citing SecureAxcess, LLC v. PNC Bank
National Association, 848 F.3d 1370, 1381 (Fed. Cir.
2017). Pet. Reply 4–5. That decision, however, was
recently vacated as moot by the Supreme Court.
Secure Axcess, LLC v. PNC Bank National
Association, 2018 WL 2186184 *1 (May 14, 2018)
(Mem.) (“The petition for a writ of certiorari [is]
granted. The judgment is vacated as moot, and the
case is remanded to the United States Court of
Appeals for the Federal Circuit with instructions to
remand the case to the Patent Trial and Appeal Board
to vacate the Board’s order.”). Patent Owner uses the
language “express financial component,” as set forth
in Blue Calypso, 815 F.3d at 1340. We discern little
substantive difference between that phrase and
“financial activity element.” Accordingly, we
substitute all further references to “financial activity
element” with “express financial component.”
7

80a
admits, “rented” is a financial term, and it is “central”
to the claims, in that “a ‘simulated return’ is
meaningless unless the data is rented—free data or
purchased data is not returned.” Pet. Reply 5–6 (citing
Ex. 1016, 34:3–24). While we agree with each party on
certain issues, overall, we agree with Petitioner.
i. Whether the Recited “Express Financial
Component” Must Be “Central” to the Claim
As an initial matter, the parties are in agreement
that the claims themselves, and not the Specification,
must recite an “express financial component.” PO
Resp. 25–29; Pet. Reply 4–5. We disagree with Patent
Owner, however, that the “express financial
component” must be “central” to the claim. The
primary case law support for this proposition, on
which Patent Owner relies, is Blue Calypso. The
manner in which the “central” language is set forth in
Blue Calypso is that whether an express limitation
“subsidy” was central to the claim was an explicit
underlying factual finding made, by the Board, in
support of an overall determination that a patent at
issue in that proceeding was a covered business
method patent. See Blue Calypso, 815 F.3d at 1339–
1340 (“The Board further observed that the subsidy
concept was ‘central to the claims’ . . . .”) (emphasis
added); Id. At 1340 (“As the Board noted, the subsidy
is central to the operation of the claimed invention.”)
(emphasis added). While Blue Calypso states that
such an underlying factual finding was relevant in
that case to the overall determination that the patent
at issue there was a covered business method patent,

81a
we do not read it as a requirement that such be
considered in all cases.
Patent Owner additionally cites Unwired Planet in
support of its position, contending that Unwired
Planet stands for the proposition that “claimed
‘activities ‘incidental to’ or ‘complementary to’ a
financial activity’ [is] not ‘the legal standard to
determine whether a patent is a CBM,’” which,
according to Patent Owner, underscores the
requirements that any “express financial component”
must be “central” to the claim. PO Resp. 26–27 (citing
Unwired Planet, 841 F.3d at 1382). Patent Owner’s
reliance on Unwired Planet is misplaced, however, as
Unwired Patent does not even discuss express claim
language, let alone a requirement that some of that
express claim language be “central” to the claim.
ii. Whether the “Rented Data” is an
“Express Financial Component”
Turning to the instant proceeding, Petitioner asserts
that “rented data,” as recited in independent claim 1,
is an express financial component, in that “renting”
content involves exchanging money for temporary
access to material. Pet. 5–6 (citing Ex. 1004 ¶ 106).
Petitioner further cites portions of the Specification as
confirming that “rented data” is an express financial
component. Pet. 6 (citing Ex. 1001, 3:34–37, 4:15,
4:28–31, 4:59–61).
Although Patent Owner sets forth the following
heading, “[t]he ’437 patent claim elements cited by
DISH do not contain ‘an express financial component’”
(PO Resp. 24), in the subsequent analysis, Patent

82a
Owner does not substantively dispute that “rented
data” is an express financial component, instead
focusing its assertions on other aspects. See generally
PO Resp. 24–29. We address those assertions below.
Petitioner further asserts the following: “Patent
Owner’s expert admits that ‘rented’ is a financial term
that involves paying money in exchange for a period
of use of an object.” Pet. Reply 6 (citing Ex. 1016, 34:3–
24 (“You -- you somehow -- you – you somehow
obtained temporary possession of something and -and you obviously have -- one way or the other, you
have provided compensation for that – for that period
of time and you’ve possessed whatever you have
possessed.”)). Patent Owner responds, “[h]ow that
temporary use was established, i.e. for free, in
exchange for watching a targeted advertisement, or
some other means, is not relevant to the claim.” PO
Sur-Reply 5.
While Patent Owner’s last assertion has some merit,
based on all of the evidence identified above, we find
that “rented data” is an “express financial
component.”8

This finding is also consistent with the plain and
ordinary meaning of “rent,” which is periodic payment
for use of another’s property. See Collins English
Dictionary (12th ed.), London, UK: Collins (2014),
Retrieved from https://search.credoreference.com/
content/entry/hcengdict/rent1/0?institutionId=743
(“rent” is defined as “a payment made periodically by
a tenant to a landlord or owner for the occupation or
8

83a
iii. Whether the “Rented Data” is
“Central” to Independent Claim 1
Even assuming that Patent Owner’s statement of
law concerning “central” is correct, we are persuaded,
for the reasons asserted by Petitioner, that “rented
data” is “central” to independent claim 1. Pet. Reply 6
(citing Ex. 1001, 3:34–37, 4:15, 8:4–6). Specifically,
Petitioner asserts, and we agree, that the
aforementioned portions of the Specification are
consistent with the following limitation being the
“center” of the claim:
a microprocessor having software
programming to control the operation of
the processing circuitry and the playback
circuitry enabling the recording of rented
data and enacting a simulated return of
use of land, buildings, or by a user for the use of other
property, such as a telephone”) (last accessed July 18,
2018) (Ex. 3004); The Chambers Dictionary (13th ed.),
London, UK: Chambers Harrap (2015), Retrieved
from https:// search.credoreference.com/
content/
entry/chambdict/rent1/0?institutionId=743 (“rent” is
defined as “periodical payment for use of another's
property, esp houses and lands; revenue.”) (last
accessed July 18, 2018) (Ex.3005); The Columbia
Encyclopedia (7th ed.), New York, NY: Columbia
University
Press
(2017),
Retrieved
from
https://search.credoreference.com/content/entry/colu
mency/rent/0?institution Id=743 (“rent” is defined as
“periodic payment by a tenant for the use of another’s
property.”) (last accessed July 18, 2018) (Ex. 3006).

84a
said rented data by deleting or
scrambling said data from said built in
storage device or blocking further access
to said data, and notifying a data
supplier of said simulated return.
Ex. 1001, 46:16–37. We further agree with Petitioner
that, analogous to the recitation of “subsidy” in Blue
Calypso, “[w]ithout the ‘rented’ aspect of the claims,
there is no reason for the other claim elements,
including a simulated return,” as “a ‘simulated return’
is meaningless unless the data is rented — free data
or purchased data is not returned.” Pet. Reply 6.
iv. Whether the Claim Must Include an
Action Constituting a Financial Activity
Patent Owner asserts that, under SightSound, the
claim must include an action constituting a financial
activity (i.e., a verb), such as “selling,” “purchasing,”
or “renting,” and that “rented data” is not a financial
activity. PO Resp. 28–30. The assertion is misplaced.
As set forth above, Blue Calypso indicates that the
claims must recite an “express financial component.”
Id., 815 F.3d at 1340. By its own explicit terms, an
“express financial component” does not include or
require a financial activity.9
Even assuming that the proper terminology was
“financial activity element,” by appending the word
“element” to “financial activity,” we opine that the
claims are not limited to only those containing a
“financial activity,” but also may encompass an
“element,” i.e., a noun, related to a “financial activity.”
9

85a
Patent Owner asserts further that Petitioner’s
citations to the Specification concerning financial
activities cannot substitute for their absences from
the claims. PO Resp. 30–32. We agree. Patent Owner’s
assertions are misplaced, however, as, for the reasons
set forth above, we find that the claim term “rented
data” is an “express financial component.”
e. Conclusion
For the foregoing reasons, we determine that
Petitioner has met its burden of demonstrating that
at least one of claims 1, 17, 18, and 27 are, or were at
the time of the Decision on Institution, directed to an
apparatus for performing data processing used in the
practice, administration, or management of a
financial product or service. Consequently, the ’437
patent satisfies the “financial product or service”
component of the definition for a covered business
method patent under § 18(d)(1) of the AIA.”
2. Technological Invention
As set forth above, the definition for “covered
business method patent” does not include patents for
“technological inventions.” AIA § 18(d)(1); see also 37
C.F.R. § 42.301(a) (stating the same). To determine
To that end, for the reasons discussed above, we find
that “rent” is a “financial activity.” We also find that
“data” is an “element” (see, e.g., Ex. 1001, 1:23 (“data
received on one or more data feeds”), 2:16 (“storing the
data”)) and, thus, agree with Petitioner that the
combined term, “rented data,” is a “financial activity
element.”

86a
whether a patent falls within this exception, our rules
prescribe a two-prong approach whereby we consider
“whether the claimed subject matter as a whole [(1)]
recites a technological feature that is novel and
unobvious over the prior art; and [(2)] solves a
technical problem using a technical solution.” 37
C.F.R. § 42.301(b). Further, the following claim
drafting techniques would not typically render a
patent a “technological invention”:
(a) Mere
recitation
of
known
technologies,
such
as
computer
hardware, communication or computer
networks, software, memory, computerreadable storage medium, scanners,
display devices or databases, or
specialized machines, such as an ATM or
point of sale device.
(b) Reciting the use of known prior art
technology to accomplish a process or
method, even if that process or method is
novel and non-obvious.
(c) Combining prior art structures to
achieve the normal, expected, or
predictable result of that combination.
Office Patent Trial Practice Guide (“Trial Practice
Guide”), 77 Fed. Reg. 48,756, 48,764 (Aug. 14, 2012).
Pursuant to the two-prong framework, Petitioner
argues that the claims of the ’437 patent do not meet
either prong. Pet. 7–9 (citing Ex. 1001). Patent Owner
disagrees for several reasons. Prelim. Resp. 32–41
(citing Ex. 1001). We have considered Patent Owner’s

87a
arguments, but we are persuaded that Petitioner has
shown sufficiently that the claimed invention of the
’437 patent is not for a technological invention.
Turning to the first prong, we consider whether the
claimed subject matter as a whole recites a
technological feature that is novel and unobvious over
the prior art, Petitioner asserts that the claims recite
only generic computer components performing generic
computer functions that were well known in the art at
the time of the invention. Pet. 8 (citing Ex. 1001).
Patent Owner asserts that Petitioner has not met its
burden of showing that this is correct, because, as set
forth in the Decision on Institution, Petitioner failed
to meet its burden of showing that the challenged
claims are anticipated or obvious in view of Ginter and
Stefik. PO Resp. 33–36; see also PO Resp. 37–38
(asserting that, through its arguments concerning
Ginter and Stefik, Patent Owner did contest this
prong in its Preliminary Response). Patent Owner
asserts further the following:
But
the
‘technological
feature’
component of the regulation cannot
abrogate the burden placed on DISH by
Section 326, and merely asserting that
features are not ‘technological’ is not
sufficient to satisfy 37 C.F.R. § 42.301(b):
DISH must demonstrate that such
features are not ‘novel and unobvious
over the prior art.’ Having failed to do
that, the Board cannot conclude that
DISH has satisfied the first prong of the

88a
technological invention test for CBM
review.
PO Resp. 37.
Petitioner replies as follows:
Patent Owner mistakenly argues that
Petitioner must show that the features
are not ‘technological’ and that they are
not ‘novel and unobvious over the prior
art.’ Id. at 37. The plain language of the
exception requires a technological
feature, and thus a showing of no
technological feature is sufficient. See 37
C.F.R. § 42.301(b).”
Pet. Reply 7. While we disagree with much of
Petitioner’s analysis in its Reply, we are persuaded,
based on the assertions set forth in the Petition, that
Petitioner has met its burden of showing that the
claimed subject matter, as a whole, recites a
technological feature that is not novel and unobvious
over the prior art.
As an initial matter, Patent Owner’s assertions
concerning Ginter and Stefik are misplaced. A
showing that a claim is not anticipated or obvious over
the cited prior art is not commensurate with a
determination that the claimed subject matter, as a
whole, recites a technological feature that is novel and
unobvious over the prior art. See 37 C.F.R. § 42.301(b).
While the former analysis focuses on the novelty or
obviousness of the claim as a whole, the latter analysis
focuses on the novelty or non-obviousness of specific,
discrete technological features recited in the claim as

89a
a whole. For the reasons set forth in the Decision on
Institution, we agree with Patent Owner that
Petitioner failed as to the former. Dec. 19–26. As set
forth below, however, we are persuaded that
Petitioner has met its burden with respect to the
establishing specific, discrete technological features
recited in the claim as a whole are not novel or nonobvious.
Specifically, the Petition expressly identifies
examples of the specific, discrete technological
features recited in independent claim 1, namely,
“receiver,”
“circuitry,”
“user
interface,”
and
“microprocessor.” The Petition further asserts, with
explicit citations to the Specification, i.e., intrinsic
evidence, that each of these and other generic
computer-related terms recited in independent claim
1, were already “known” in the art. Pet. 8 (citing Ex.
1001, Abs.; 4:63–64; 5:8–10; 13:25–31; 13:54–60;
13:66–14:2; 14:5–8; 14:29–35; 14:35–40; 14:46–50;
15:4–6; 15:11–14; 15:14–18; 15:43–46; 18:20–23;
18:42–46; 24:29–37; 25:4–10; and 37:33–36).
For example, the citation to Exhibit 1001, 14:46–50,
reads as follows: “Processing means 13 may include
any number of circuits, signal processors, filters, or
other data manipulation devices known in the art for
providing any electronic features or functions that
may exist in standard televisions and other such
displays known in the art” (emphasis added).
Independent claim 1 recites “processing circuitry for
processing the data and for storing the processed data
in the built in storage device.” When considered
together, we are persuaded that Petitioner has met its

90a
burden of showing, through explicit guidance from the
Petition, that the recited “processing circuity” was
generic and well-known in the art.
In another example, the citation to Exhibit 1001,
15:11–14, reads as follows: “Playback device 15 may
include any technology known in the art for playing
back audio/video data from any storage device known
in the art (e.g., video tape, DVD, laser disc, etc.)”
(emphasis added). Independent claim 1 recites
“playback circuitry, which reads the data from the
built in storage device and which converts the data to
electronic signals for driving a playback apparatus.”
Again, when considered together, we are persuaded
that Petitioner has met its burden of showing, through
explicit guidance from the Petition, that the recited
“playback circuitry” was generic and well known in
the art.
In this regard, after considering each limitation of
independent claim 1, as well as each explicit citation
to the Specification expressly set forth in the Petition,
we are persuaded that Petitioner has met its burden
of showing, via analysis and evidence explicitly set
forth on page 8 of the Petition, that independent claim
1, as a whole, does not recite a technological feature
that is novel or unobvious.10

In view of this determination, which is based on
Petitioner’s express analysis and evidence set forth
explicitly on page 8 of the Petition, Patent Owner’s
more specific arguments, e.g., the determination is
arbitrary and capricious (PO Resp. 33–34), the burden
10

91a
Turning to the second prong for determining
whether a patent is for a “technological invention,” we
recognize that Patent Owner presents assertions
directed to whether the claimed invention solves a
technical problem using a technical solution. PO Resp.
38–41; see also id. at 51–65 (in the context of a ground
of unpatentability under 35 U.S.C. § 101, assertions
that patents are directed to a technological solution to
a technological problem). We, however, need only
assess whether one of the prongs set forth in 37 C.F.R.
§ 42.301(b) is deficient to determine whether the
claims of the ’437 patent are not for a “technological
invention.” See Apple Inc. v. Ameranth, Inc., 842 F.3d
1229, 1240 (Fed. Cir. 2016) (“We need not address this
argument regarding whether the first prong of 37
C.F.R. § 42.301(b) was met, as we affirm the Board’s
determination on the second prong of the regulation—
that the claimed subject matter as a whole does not
solve a technical problem using a technical solution”).
As set forth above, we are persuaded by Petitioner’s
explanation as to why the claimed subject matter, as
a whole, does not recite a technological feature that is
novel and non-obvious over the prior art, and,
therefore, we are satisfied that Petitioner has met its

of persuasion is improperly shifted to Patent Owner
(PO Resp. 34–35), that the determination lacks
adequate reasoning (PO Resp. 35–36), that the
determination is not based on evidence (PO Resp. 36),
and that the Petition’s analysis is inadequate (PO
Resp. 36–37), also fall away.

92a
burden of showing that the ’437 patent is not for a
“technological invention.”
3. Conclusion
For the reasons set forth above, we are persuaded
that Petitioner has met its burden of demonstrating
that the ’437 patent is covered business method patent
eligible for review.
G. Grounds of Unpatentability
The Board instituted trial on claims 1, 9, 10, and 13–
16 on the following grounds.
Reference(s)

Ginter11

Basis

Challenged Claims

§ 101

1, 9, 10, and 13–16

§ 102(b) 1, 9, 10, and 13–16

Ginter and Stefik12 § 103(a) 1, 9, 10, and 13–16
Dec. 2, 26. Petitioner relies on the Declarations of
Anthony Wechselberger. Exs. 1004, 1017, 1022.
Patent Owner relies on the Declaration of Dr. Jay P.

WO 96/27155, pub. Sept. 6, 1996 (Ex. 1002,
“Ginter”).
11

U.S. Patent No. 5,634,012, iss. May 27, 1997 (Ex.
1003, “Stefik”).
12

93a
Kesan (Exs. 2001, 2005), who was deposed (Exs. 1016,
1021).
II. ANALYSIS OF GROUNDS OF
UNPATENTABILITY
A. Claims 1, 9, 10, and 13–16 as Directed to NonStatutory Subject Matter Under 35 U.S.C. § 101
Petitioner contends that claims 1, 9, 10, and 13–16
do not recite patent eligible subject matter under 35
U.S.C. § 101, because they are directed to an
unpatentable abstract idea and do not contain an
“inventive concept” that amounts to significantly more
than the abstract idea. Pet. 23–39 (citing Exs. 1001,
1004). Patent Owner disagrees. PO Resp. 41–78
(citing Exs. 1001, 2005–2007). Petitioner replies. Pet.
Reply 8–23. Patent Owner further responded. PO Sur.
1–5. Petitioner did the same. Pet. Sur. 1–5.
1. Relevant Law
An invention is patent-eligible if it claims a “new
and useful process, machine, manufacture, or
composition of matter.” 35 U.S.C. § 101. The Supreme
Court, however, has long interpreted § 101 to include
implicit exceptions: “[l]aws of nature, natural
phenomena, and abstract ideas” are not patentable.
E.g., Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134 S. Ct.
2347, 2354 (2014).
In determining whether a claim falls within the
abstract ideas exception, we are guided in our analysis
by the Supreme Court’s two-step framework,
described in Mayo and Alice. Id. at 2355 (citing Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S.

94a
Ct. 1289, 1296–97 (2012)). In accordance with that
framework, we first determine whether the claim is
“directed to” a patent-ineligible abstract idea. See
Alice, 134 S. Ct. at 2356. We evaluate “the focus of the
claimed advance over the prior art to determine if the
claim’s character as a whole is directed to excluded
subject matter.” Affinity Labs of Texas, LLC v.
DIRECTV, LLC, 838 F.3d 1253, 1257 (Fed. Cir. 2016)
(internal
quotation
marks
omitted).
“When
considering claims purportedly direct to ‘an
improvement of computer functionality,’ we ‘ask
whether the focus of the claims is on the specific
asserted improvement in computer capabilities . . . or,
instead, on a process that qualifies as an ‘abstract
idea’ for which computers are invoked merely as a
tool.” Smartflash LLC v. Apple, Inc., 680 Fed. App’x.
977, 982–83 (Fed. Cir. 2017) (quoting Enfish, LLC v.
Microsoft Corp., 822 F.3d 1327, 1335–36 (Fed. Cir.
2016)).
The following method is then used to determine
whether what the claim is “directed to” is an abstract
idea:
[T]he decisional mechanism courts now
apply is to examine earlier cases in
which a similar or parallel descriptive
nature can be seen—what prior cases
were about, and which way they were
decided. See, e.g., Elec. Power Grp., 830
F.3d at 1353–54.2 That is the classic
common law methodology for creating
law when a single governing definitional
context is not available. See generally

95a
Karl N. Llewellyn, The Common Law
Tradition: Deciding Appeals (1960). This
more flexible approach is also the
approach employed by the Supreme
Court. See Alice, 134 S.Ct. at 2355–57.
We shall follow that approach here.
Amdocs (Israel) Limited v. Openet Telecom, Inc., 841
F.3d 1288, 1294 (Fed. Cir. 2016).
If the claim is “directed to” a patent-ineligible
abstract idea, we then consider the elements of the
claim—both individually and as an ordered
combination—to assess whether the additional
elements transform the nature of the claim into a
patent-eligible application of the abstract idea. Alice,
134 S. Ct. at 2355. This is a search for an “inventive
concept”—an element or combination of elements
sufficient to ensure that the claim amounts to
“significantly more” than the abstract idea itself. Id.
2. Whether the Claims Are
Directed to an “Abstract Idea”
Petitioner asserts the following:
Claim 1 of the ’437 patent is directed to
the abstract idea of delivering rented
audio/video content to a user. Ex. 1004 at
¶ 105. The remaining elements of the
claim merely identify the generic
technological environment (i.e., the
“receiver
apparatus,”
“memory
circuitry,” “processing circuitry,” “user
interface,” “playback circuitry,” and
“microprocessor”) and add routine and

96a
conventional post-solution activity. Id. at
¶ 109.
Pet. 28. In response to the assertions set forth in the
Patent Owner Preliminary Response, in the Decision
on Institution, we modified Petitioner’s assertion as to
what independent claim 1 is directed to, as follows:
“delivering rented audio/video electronic content to a
user.” Dec. 14–15; but see concurring opinion
(disagreeing with the majority’s inclusion of the word
“electronic”). Petitioner expressly adopts that
formulation. Pet. Reply 9.
i. Whether the Majority’s Addition of
“Electronic” was Procedurally Proper
Patent Owner asserts that, analogous to the Board’s
consideration of dependent claim 17, 18, and 27,
adding the word “electronic” was improper because it
was “considering arguments beyond the Petition.” PO
Resp. 65–67. For all the same reasons set forth above,
Patent Owner’s assertions are unpersuasive.
Certainly, Petitioner’s assertions must be based on
the Petition, in that any omission by Petitioner is
made at their own peril. We disagree, however, that a
decision on institution is narrowly limited to
information expressly identified only within the four
corners of the petition.
Indeed, the most overt exception to the information
set forth in the petition, as indicated above, is the
preliminary response to petition. 35 U.S.C. § 324 (“the
information presented in the petition filed under
section 321, if such information is not rebutted . . . .”).
Here, as acknowledged by Patent Owner, the majority

97a
based their determination on assertions set forth in
Patent Owner’s Preliminary Response. PO Resp. 66
(citing Dec. 14–15).
Patent Owner may perhaps be asserting that, based
on the relevant statutes, any deviation from a petition
made, or at least those due to assertions advanced by
a patent owner, are fatal, or that only such assertions
detrimental to the petition should be taken into
account. We disagree with both assertions. With
respect to the latter, as a practical matter, we
determine it would be difficult to sort what is or is not
detrimental to the petition. Furthermore, a party,
whether petitioner or patent owner, is free to set forth,
or not set forth, any assertion, with the understanding
that such an assertion, or omission, is done at their
own peril. In any case, we discern that the better rule
is to address all relevant assertions made, without any
regard as to whether any resulting consequences favor
one party or another.
With regards to the former, certainly we expect that
most deviations from the petition made, at the behest
of a patent owner, will be detrimental, and, in some
cases, fatal, to the petition. Nevertheless, that is not
always the case, and, here, Petitioner was fortunate
that the case cited in the Petition, Affinity Labs of
Texas, LLC v. Amazon.Com, Inc., No. 6:15-CV-0029WSSJCM, 2015 WL 3757497, at *8 (W.D. Tex. June
12, 2015) (aff’d 2016 WL 5335502, at *2), was
sufficient to show that both its original formulation as
to what independent claim is “directed to,” and the
formulation revised in light of Patent Owner’s

98a
arguments, were directed to an unpatentable abstract
idea. Dec. 16–17 (citing Pet. 28–29).
In this case, we are persuaded that Petitioner has
met their burden of showing that independent claim 1
is directed to “delivering rented audio/video electronic
content to a user,” and that such a concept is an
unpatentable abstract idea. Our reasoning is set forth
below.
ii. Whether the Petitioner’s Assertion
as to What Independent Claim 1 is
“Directed To” is Too Narrow
Patent Owner asserts that “delivering rented
audio/video content to a user,” electronic or otherwise,
does not capture the full scope of independent claim 1.
PO Resp. 67. Specifically, Patent Owner asserts that
such a formulation of what independent claim 1 is
“directed to” does not account for “operational
parameters (e.g. control of the rented audio/video
content after it is delivered) that solve problems
created by the onward march of computer networking
technology and the evolving distribution channels for
rented data.” PO Resp. 67 (citing Visual Memory LLC
v. NVIDIA Corp., 867 F.3d 1253 (Fed. Cir. 2017)).
Petitioner responds, “the ‘technological’ limitations of
claim 1 are ancillary to the abstract idea of ‘delivering
rented audio/video electronic content to a user.’” Pet.
Reply 10. Although we agree with certain points made
by both parties, in the aggregate, we agree with
Petitioner.

99a
Patent Owner first asserts that, in the related
district court proceeding, Petitioner’s damages expert
admitted the following:
I understand that the ’437 patent and
the ’029 patent relate to simulated and
virtual return notification for timerestricted video content. Specifically, the
’437 patent and ’029 patent generally
describe a digital STB and relate to
notification/monitoring of the virtual
return/simulated return of limited-use
digital data/rented digital data.
PO Resp. 67 (quoting Ex. 2006 ¶ 68) (emphasis
omitted); see also Ex. 2006 ¶¶ 111, 193 (asserting the
same). While we acknowledge Patent Owner’s general
point, we are persuaded by Petitioner’s assertion that
it is not dispositive, as (1) the testimony refers to
patents, and not claims, and (2) that the testimony is
in the context of infringement and damages, both of
which concern inquiries different than what a claim is
“directed to.” Tr. 75:22–76:2, 88:22–89:17, 90:4–15.
Patent Owner next asserts that Petitioner’s analogy
to rental of physical tapes generally is incorrect, as
follows:
But DISH is only able to make the
analogy because DISH impermissibly
ignores the specification. As the
specification notes, there are several
problems with the transfer and exchange
of digital files that are unique to
computer networking. For example, the

100a
specification repeatedly details the
technological problems with piracy and
unauthorized use of data, as pirates are
able to intercept, steal, and mass
distribute files to thousands of people
without the content provider or end user
knowing that the files were intercepted.
See supra Part I.B.1.a. There simply is
no analogue to such activity in the video
store analogy. To make it more exact, one
would have to imagine an absurd
scenario where the rented video is
secretly stolen out of the customer’s car
while they are driving to or from the
video store, copied, distributed to
millions of other people, and returned to
the customer’s car without the customer
or video store ever knowing.
PO Resp. 68–69; see also PO Resp. 52 (“[t]here is no
historical analogue to a ‘simulated’ or ‘virtual’ return
described in the patents.”). Petitioner responds that
the above technical aspects are implementation
details of the abstract idea of “delivering rented
audio/video electronic content to a user,” using “preexisting computer functions and generically recited
‘software,’ and that the technical aspects identified by
Patent Owner are those that fall on the side of generic
computer components that should not be included in
what a claim is “directed to,” rather than an
improvement
in
computer
functionality
of
networking. Pet. Reply 10, 12–14. We agree with
Petitioner.

101a
We acknowledge that, of course, this is the difficulty
of conducting this inquiry under the framework set
forth in the Alice: that claims recite many limitations,
yet, in determining what the claims are “directed to,”
choices must be made as to include or omit, and there
is no clear guidance concerning where such lines
should be drawn. See Visual Memory, 867 F.3d at 1259
(“With these guideposts in mind, and cognizant of the
difficulty inherent in delineating the contours of an
abstract idea, we turn to the claims at issue here.”).
Having said that, we determine that the clearest
indication that Petitioner is correct, that Petitioner’s
adopted formulation is not too narrow, is from an
analysis flowing from the formulation itself.
Specifically, we begin with “delivering rented
audio/video electronic content to a user,” and an
inquiry as to the minimum steps needed,
theoretically, as to how to implement such a concept.
The minimum steps needed would appear to be (a)
identifying the electronic content to be rented on a
remote storage device, (b) transferring that electronic
content to a local storage device, (c) utilizing the
electronic content on a local processing device, and, (d)
when the rental period has concluded, somehow
“returning” the electronic content to the remote
storage device. Given those minimum steps needed,
we review independent claim 1, and determine that
the steps recited therein largely mirror those
minimum steps. Indeed, the only limitations not
arguably subsumed within those minimum steps are
the specifics of “enacting a simulated return,”
however, three options are then provided, namely,

102a
“deleting,” “scrambling,” or “blocking.” We discern
that it would appear, at best, awkward to place
multiple options into what should be a unitary
determination of what a claim is “directed to,” which,
to us, indicates that those are, as Petitioner suggests,
implementation details that should be excluded. 13
Indeed, Patent Owner admits as much by indicating,
“the Patent accomplishes that task with innovative
technological solutions, like scrambling the data to
limit access to it.” PO Resp. 70; emphasis added. We
are persuaded that it is not appropriate to add, to a
determination of what a claim is “directed to,” an
implementation that is merely exemplary.
By contrast, Patent Owner’s assertions that
independent claim 1 is directed to a specific, discrete
implementation of a technological solution is
unconvincing because, among other reasons, Patent
Owner does not set forth a counter-assertion as to
what independent claim 1 is “directed to,” from which
an analysis counter to that of Petitioner’s can be
performed. For example, Patent Owner asserts that
independent claim 1 solves a problem “unique to the
network-connected digital world” by providing “a
In their Sur-Reply, Patent Owner asserts that the
step of “return” cannot subsumed within “delivering
rented audio/video electronic content to a user,”
because, by its own literal terms, it only involves
“delivery.” PO Sur-Reply 3. While that assertion has
some merit, in the end, we determine that the “return”
is subsumed within “rented,” as we are unclear how
something can be “rented” without a “return.”
13

103a
microprocessor with discrete operational parameters
that prohibit the unauthorized use and distribution of
restricted (rented) digital data in a multifaceted
network connected environment.” PO Resp. 51–52.
The problem is that Patent Owner does not identify
those “discrete operational parameters,” or how they
would compel any changes to “delivering rented
audio/video electronic content to a user.” And insofar
as Patent Owner is asserting that “enacting a
simulated return,” i.e., “deleting,” “scrambling,” or
“blocking,” are those operational parameters, we are
persuaded that they are already subsumed within
“delivering rented audio/video electronic content to a
user,” for the reasons set forth above.
Patent Owner further asserts that the claims
concern “limitation[s] narrowing the scope of the
claim to restricted digital data in a networked
environment and a solution to the problem of
enforcing the restrictions on that data after it is
received at the end user’s location,” and that “[i]t is
only because of the ability to distribute content
(rented data) over networked communications
systems that the unique piracy and unauthorized use
and distribution problems arose.” PO Resp. 51–52.
The assertions are misplaced, as we are unclear how
such an assertion is contrary to a determination that
independent claim 1 is directed to “delivering rented
audio/video electronic content to a user.” Indeed, if
anything, they appear to be co-extensive with, and
support, Petitioner’s position.
Patent Owner next goes into extensive detail
concerning the technological problems set forth in the

104a
Specification, and also cites Dr. Kesan’s analysis of
those technological problems. PO Resp. 52–55 (citing
Ex. 1001, 1:44–62, 2:13–20, 9:65–10:1; Ex. 2005 ¶¶
1022, 1050, 1052, 1054). We have reviewed them, and
agree with Patent Owner that many of these factual
assertions, on their own, have merit. However, we also
determine that these factual assertions are consistent
with a determination that independent claim 1 is
directed to “delivering rented audio/video electronic
content to a user,” in that the presence of the word
“electronic” presupposes electronic devices, and that
any implementation of a business problem in another
technological environment will inevitably involve
some execution issues. The Supreme Court has made
clear that “if a patent’s recitation of a computer
amounts to a mere instruction to “‘implemen[t]’ an
abstract idea ‘on . . . a computer,’ that addition cannot
impart patent eligibility.” Alice, 134 S. Ct. at 2358.
The relevant question then, is whether the problem is,
indeed, primarily technological by itself, which would
weigh toward patent eligibility, or fundamentally a
business
problem
with
readily
foreseeable
technological execution issues, which would not. We
admit that teasing such nuance out of claim
limitations is, at times, difficult. Ultimately, however,
we determine that the proper conclusion here is the
latter – that the identified technological problems are
readily foreseeable technological execution issues of
fundamentally a business problem. The above
analysis also applies for Patent Owner’s further
assertions that independent claim 1 is directed to a
“discrete, specific implementation of a technological
solution to address the technological problems

105a
described in the specification.” PO Resp. 55–60 (citing
Ex. 1001, 4:3–8, 7:18–24, 8:14–17, 12:65–13:3, 34:34–
38, 35:32–34, 35:54–67, 37:63–38:28, 38:39–44; Ex.
2005 ¶¶ 82, 1050).
Patent Owner additionally
mentions that
“[c]ontrolling access of proprietary data to authorized
end users—and (more importantly to the data
provider) preventing unauthorized users from
accessing that data—had been a technological
dilemma confounding the industry since the
information explosion described in the ’437 Patent
specification,” and that standards have been
developed to deal with this, such as MPEG-21. PO
Resp. 60–65 (citing Ex. 2005 ¶ 5; Ex. 2007). While we
agree generally, we are unclear as to the relevance to
our conclusion as to what independent claim 1 is
“directed to.” For example, we note that the word
“rent,” or any variant thereof, is not mentioned in any
portion of this analysis. By use of italics in the
aforementioned portion of the Patent Owner
Response, we speculate that perhaps Patent Owner
meant
for
terms
such
as
“management,”
“manipulation,” and “protection” to be proxies for
“rented.” Patent Owner has not, however, provided
sufficient analysis to bridge that gap, and we are
unable to discern it for ourselves.
Indeed, when the above assertions are taken as a
whole, what Patent Owner appears to be asserting is
that an identification of any technological problem,
and any corresponding technological solution, by itself
takes a claim outside the realm of an abstract idea.
While that idea will be explored in more detail in the

106a
next portion of our analysis, as a general matter, that,
of course, cannot be correct. In particular, both
Petitioner and the Board have identified case law
that, while arguably involving a technological
problem with a technological solution, was,
nevertheless, found to be “directed to” an abstract idea
under the Amdocs framework. See Affinity Labs of
Texas, 2015 WL 3757497, at *8; Smartflash, 680 Fed.
App’x. at 982–83; Ultramerical, Inc. v. Hulu, LLC, 772
F.3d 709, 716 (Fed. Cir. 2014); see also Intellectual
Ventures I LLC v. Symantec Corp., 838 F.3d 1307
(Fed. Cir. 2016) (“claim 7 involves an idea that
originated in the computer era—computer virus
screening. . . . By itself, virus screening is well-known
and constitutes an abstract idea.”). Instead, “[w]hen
considering claims purportedly directed to ‘an
improvement of computer functionality,’ we ‘ask
whether the focus of the claims is on the specific
asserted improvement in computer capabilities . . . or,
instead, on a process that qualifies as an ‘abstract
idea’ for which computers are invoked merely as a
tool.” Smartflash, 680 Fed. App’x. at 982–83 (quoting
Enfish, 822 F.3d at 1335–36). Essentially, Petitioner
asserts the latter, a position we determine is credible
and adequately supported, and Patent Owner does not
persuasively identify specific flaws in Petitioner’s
formulation of what independent claim 1 is “directed
to,” or, in the alternative, provide their own more
persuasive formulation.
In view of the above, we find that independent claim
1 is properly directed to “delivering rented audio/video
electronic content to a user.”

107a
ii. Whether “Delivering Rented Audio/Video
Electronic Content to a User” is an Abstract Idea
Petitioner identifies Affinity Labs of Texas, LLC,
2015 WL 3757497, at *8 (aff’d 2016 WL 5335502, at
*2) for support that “[t]he process of selecting media,
receiving that media, and subsequently playing that
media describes an abstract idea, devoid of a concrete
or tangible application.” Pet. 28–29. Under the
Amdocs framework, Petitioner asserts that this is
similar to “delivering rented audio/video electronic
content to a user.” The Decision on Institution also
provides the following analysis:
Similarly, in Smartflash, the Federal
Circuit determined that claims reciting a
method and a terminal for controlling
access to and retrieving multimedia
content were directed to the abstract
idea of “conditioning and controlling
access to data based on payment.”
Smartflash, No. 2016-1059, slip op. at 4–
6. Like the claims at issue here, the
claims at issue in Smartflash recited the
use of components of a computer, such as
a processor having code to receive
multimedia content and code to control
access to the multimedia content
according to use rules, a user interface, a
memory, and an audio/video player. Id.
at 4–6. The Federal Circuit determined
that the claims “invoke computers
merely as tools to execute fundamental
economic practices.” Id. at 10; see also

108a
Ultramerical, Inc. v. Hulu, LLC, 772
F.3d 709, 716 (Fed. Cir. 2014) (finding
computer-implemented system claim
merely recited the abstract idea of
offering media content in exchange for
viewing an advertisement, along with
routine additional steps such as
restrictions on public access).
Dec. 17.
Patent Owner asserts that Petitioner’s citation to
Affinity Labs is inapposite, and asserts that DDR
Holdings, LLC v. Hotels.com, L.P., 773 F.3d 1245
(Fed. Cir. 2014) is more appropriate. PO Resp. 69. As
an initial matter, we are unclear as to why Petitioner’s
citation to Affinity Labs is inapposite. In particular,
independent claim 1 is directed to “delivering rented
audio/video electronic content to a user,” and similarly
Affinity Labs reads that “[t]he process of selecting
media, receiving that media, and subsequently
playing that media describes an abstract idea, devoid
of a concrete or tangible application.” Affinity Labs of
Texas, LLC, 2015 WL 3757497, at *8 (aff’d 2016 WL
5335502, at *2). In our view, the comparison between
the two seems, if nothing else, relevant.
Concerning DDR Holdings, however, Patent Owner
appears
to
be
asserting
that,
like
the
inappropriateness of analogizing kiosk shopping in
the physical world into the digital world, as held in
DDR Holdings, it is equally inappropriate, here, to
analogize physical video rentals into the digital world.
Patent Owner’s assertion is misplaced, in that it rests

109a
on the belief that Petitioner was relying only on its
theory that “renting videos from a brick and mortar
retail store” is an abstract idea. If that were the case,
Patent Owner’s assertion may have some merit.
However, Petitioner also relies on Affinity Labs, which
having claims very similar to those at issue here, that
our reviewing court found as being directed to an
abstract idea, an analysis to which Patent Owner does
not respond with, at least as far as we are able to
ascertain, an express challenge. Put another way,
while DDR Holdings may provide support for Patent
Owner’s general point, as a practical matter, we are
persuaded by Petitioner’s assertions that the “directed
to” formulations in Affinity Labs and independent
claim 1 are very similar, which, under Amdocs, is the
controlling inquiry as to whether or not something is
an abstract idea.
With respect to Smartflash, Patent Owner asserts
the following:
The Board cites Smartflash LLC v. Apple
Inc., 680 Fed. App’x 977 (Fed. Cir. Mar.
1, 2017)—an unpublished opinion—for
the proposition that, “[l]ike the claims at
issue here, the claims at issue in
Smartflash
recited
the
use
of
components of a computer, such as a
processor having code to receive
multimedia content and code to control
access to the multimedia content
according to use rules, a user interface, a
memory, and an audio/video player.”
Paper 11, at 17. But that analogy fails to

110a
reconcile the fact that the Patent is
directed to solving problems that are
unique to the technological environment
and solve a long-felt problem with
unauthorized access to data, and that
the Patent accomplishes that task with
innovative technological solutions, like
scrambling the data to limit access to it.
Further,
the
patent-at-issue
in
Smartflash explicitly recited multiple
steps in a financial transaction and then
just put them into a computer, see 680
Fed. App’x at 980, which is not the case
here.
PO Resp. 70. Patent Owner’s assertions are
inapposite, because, even crediting Patent Owner’s
factual assertions, that does not disturb our previous
findings that (1) Smartflash is directed to “claims
reciting a method and a terminal for controlling access
to and retrieving multimedia content[, which] were
directed to the abstract idea of ‘conditioning and
controlling access to data based on payment’” (Dec. 17
(citing Smartflash, No. 2016-1059, slip op. at 4–6)),
and (2) there is little difference between that, and
“delivering rented audio/video electronic content to a
user,” as set forth in independent claim 1. Indeed, the
only claim limitation identified expressly by Patent
Owner as a potential difference is “scrambling the
data,” however, for the reasons set forth above, we are
persuaded that is properly omitted from the
formulation of what independent claim 1 is “directed
to.” Patent Owner also does identify that Smartflash

111a
is directed to “multiple steps in a financial
transaction,” but we are unpersuaded that
illuminates a sufficient substantive difference
between the relevant formulations, as “delivering
rented audio/video electronic content to a user” also
involves a financial activity, as noted above.
Patent Owner makes assertions, similar to those set
forth for Smartflash, for Ultramercial, with the only
substantive difference, that we are able to discern,
being that Ultramercial is in the field of advertising.
PO Resp. 70–71. While Patent Owner is correct on
that factual point, again, that is insufficient to
substantively determine that while offering media
content in exchange for viewing an advertisement,
along with routine additional steps such as
restrictions on public access, as set forth in
Ultramercial, is an abstract idea, “delivering rented
audio/video electronic content to a user,” as in the
instant independent claim 1, is not.
Indeed, we determine that the case law most
favorable to Patent Owner, and closest to the concept
of “delivering rented audio/video electronic content to
a user,” is Visual Memory. PO Resp. 41–43. When we
delve into the details, however, we see that analogy
fails, or, at a minimum, does not override our above
conclusions concerning Affinity Labs, Smartflash, and
Ultramercial. Specifically, in Visual Memory, the
Federal Circuit held the following:
Our review of the ’740 patent claims
demonstrates that they are directed to
an improved computer memory system,

112a
not to the abstract idea of categorical
data storage. Claim 1 requires a memory
system
“having
one
or
more
programmable
operational
characteristics,
said
characteristics
being defined through configuration by
said computer based on the type of said
processor,” and “determin[ing] a type of
data stored by said cache.”
Visual Memory, 867 F.3d at 1259. We are unable to
identify any of these relevant traits in independent
claim 1. For example, we are unclear what part of a
computer is improved by “delivering rented
audio/video electronic content to a user.” By its own
terms, it would seem that any “improvement” would
accrue to the user, and not a computer. In another
example, we are unclear what part of a computer
would have configuration characteristics defined by
data. In “delivering rented audio/video electronic
content to a user,” the only data recited is “audio/video
electronic content,” however, as best as we are able to
ascertain, such “content” would be delivered in the
same manner, regardless of the “type” of content.
Finally, Petitioner asserts that it is clear from the
prosecution history that independent claim 1 was
allowed based on the inclusion of its “notifying”
limitation, and that Patent Owner’s assertions made
in district court “preclude[ ] a finding that the claims
are not directed to an abstract idea.” Pet. Reply 10–
16. Nominally, Petitioner argues that this assertion is
in response to Patent Owner’s assertion that certain
claim limitations “solve[ ] issues of accessibility,

113a
piracy and data protection.” Pet. Reply 10 (citing PO
Resp. 57–58); see also Pet. Sur. 1–2 (asserting that
arguments are also responsive to those made on pages
72–74 of Patent Owner Response, which concern step
two of Alice). As an initial matter, we are in agreement
with Patent Owner, in that we are skeptical of the
proffered justification for Petitioner’s assertions
concerning “notifying,” as the claim limitations
immediately preceding this portion of Petitioner’s
Reply only include “simulated return” and
“scrambling,” and related terms “encryption” and
“encoding,” and not “notifying.” PO Sur. 1. Even when
considered, however, we are unclear as to their
relevance to step one of Alice, in that Petitioner does
not appear to advocate for any changes as to what
independent claim 1 is “directed to” based on the
“notifying” limitation, and we are unclear as to how
the “abstractness” of “notifying” assists in
determining whether “delivering rented audio/video
electronic content to a user” is an abstract idea.
In view of the above, we find that “delivering rented
audio/video electronic content to a user” is an abstract
idea.
iii. Conclusion
We are persuaded that Petitioner has met its burden
of showing that independent claim 1 is directed to
“delivering rented audio/video electronic content to a
user,” and that “delivering rented audio/video
electronic content to a user” is an abstract idea. We
are persuaded that Petitioner has met the same for
dependent claims 9, 10, and 13–16. Pet. 35.

114a
3. Whether the Claims Recite
“Significantly More” than an Abstract Idea
Petitioner goes into detail concerning each of claims
1, 9, 10, and 13–16, and why each of these claims does
not, in their view, contain an inventive concept that
amounts to “significantly more” than an abstract idea.
Pet. 30–39. Patent Owner asserts that Petitioner has
failed to meet its burden of showing, under the
guidance set forth in Berkheimer v. HP, Inc., 881 F.3d
1360 (Fed. Cir. 2018), a sufficient evidentiary basis for
its assertions that certain claims elements are “wellunderstood, conventional and routine.” PO Sur. 3–5.
Petitioner disagrees, asserting, among other
arguments, that its assertions with respect to “wellunderstood, conventional and routine” are sufficiently
supported by evidence, for example, by the prior art
cited in the Petitioner, the testimony of Mr.
Wechselberger, and “the inventor’s own admissions
that the majority of the claim elements were
conventional.” Pet. Sur. 4–5 (citing Pet. 30–35; Ex.
1004 ¶¶ 107–146; Ex. 1017 ¶¶ 6–38). As a general
procedural matter, we agree with Petitioner that none
of their assertions concerning “well-understood,
conventional and routine” are so devoid of evidentiary
support as to compel a determination that Petitioner
has not met their burden on this basis alone.
Accordingly, we, instead, evaluate each of Patent
Owner’s assertions, concerning an evidentiary
deficiency with respect to a particular claim element,
individually, in light of Petitioner’s assertions.
Berkheimer, 881 F.3d at 1368 (“[N]ot every § 101

115a
determination contains genuine disputes over the
underlying facts material to the § 101 inquiry.”).
To that end, Patent Owner first asserts that “[c]laim
1’s architecture of separating the processing circuitry
from the microprocessor and assigning specific
operations to that processing circuitry was
unconventional and nongeneric,” with the functions of
the processing circuitry identified being (1) processing
data, (2) storing data, and (3) receiving programming
functions from the user interface. PO Resp. 72–74
(citing Ex. 2005 ¶¶285–86, 1056–57). Petitioner
replies as follows:
The three functions that Patent Owner
assigns to the claimed processing
circuitry are processing, storing, and
receiving data. Id. These three functions
were well-known in the art, as shown by
the combination of Goldwasser and
Tsukamoto cited during prosecution. Ex.
1017, ¶ 38. Moreover, it is hard to think
of any more conventional and routine
functions of computer processing
circuitry.”
Pet. Reply 17–18; see also Pet. 32–34 (citing Ex. 1001,
14:23–33, 14:46–48; Ex. 1004 ¶¶ 123, 127). We agree
with Petitioner. The ’437 patent discloses that
“[p]rocessing means 13 may include any number of
circuits, signal processors, filters, or other data
manipulation devices known in the art . . . . The
microprocessor may also include, but is not limited to,
one or more the following processing circuits or

116a
devices . . . .” Ex. 1001, 14:46–48. We agree that this
directly supports Petitioner’s assertion that the
separation of the processing circuitry from the
microprocessor was “well-understood, conventional
and routine.” We further agree with Petitioner that
there cannot be any reasonable dispute that
processors, or whatever equivalent terms may be
used, process data and store data. We additionally
agree with Petitioner that, for receiving programming
functions from a user interface, Petitioner provides a
sufficient factual support for that function being “well
understood, conventional and routine, in that the ’437
patent discloses that such programming functions are
received from user interface 17 using “any . . .
computer interface known in the art.” Ex. 1001,
14:29–33.
Patent Owner asserts further that “DISH’s prior art
references (for challenges that were rejected by this
Board) further demonstrate the point that such
architecture was both unconventional and a solution
over the prior art.” PO Resp. 72–73. Petitioner
responds, “Patent Owner again conflates the Board’s
decision not to institute on Petitioner’s prior art based
grounds with a proper analysis of unpatentability
under Section 101.” Pet. Reply 17. We agree with
Petitioner. “Groundbreaking, innovative, or even
brilliant discovery does not by itself satisfy the § 101
inquiry.” Ass’n. for Molecular Pathology v. Myriad
Genetics, Inc., 569 U.S. 576, 591 (2013). A novel and
non-obvious claim directed to a purely abstract idea
is, nonetheless, patent ineligible. See Mayo, 566 U.S.
at 90; see also Diamond v. Diehr, 450 U.S. 175, 188–

117a
89 (1981) (“The ‘novelty’ of any element or steps in a
process, or even of the process itself, is of no relevance
in determining whether the subject matter of a claim
falls within the § 101 categories of possibly patentable
subject matter.”).
Patent Owner asserts additionally that the recited
“simulated” or “virtual” returns, by “deleting or
scrambling limited-use data, and allowing for the
capability of notifying the data supplier that the data
had been rendered inaccessible” was also
unconventional and non-generic. PO Resp. 73.
Petitioner asserts that “[d]uring prosecution, the
inventor of the ’437 Patent admitted that the idea of
‘enacting a simulated return of said rented data by
deleting or scrambling said data from said built in
storage device or blocking further access to said data’
was disclosed by the prior art.” Pet. 34 (citing Ex.
1009, 150–52); see also Pet. Reply 18 (citing Ex. 1009,
151; Ex. 1016, 64:11–16) (asserting the same).
Petitioner asserts further that “[o]ne of ordinary skill
in the art would understand that in order to bill the
user for late fees, the user must notify the data
provider of when the data has been ‘returned.’ Ex.
1004 at ¶ 130. Moreover, the concept of providing
rental fees upon late notification of a late return was
a well-known practice in brick-and-mortar rental
stores. Id.” Pet. 34–35; see also Pet. Reply 18–19
(citing Ex. 1009, 151; Ex. 1016, 70:24–71:20)
(asserting the same). We agree with Petitioner, in part
because
Patent
Owner
does
not
provide
countervailing evidentiary or analytical support for
their assertion.

118a
Patent Owner asserts that Petitioner’s analysis is
similarly deficient for certain limitations recited in
some dependent claims. PO Resp. 74–78. For example,
for dependent claim 9, Patent Owner identifies
“limitations of recording the rented data onto a
portable storage device and a restriction on the
number of programs that can be recorded onto that
device,” and that this is an “inventive concept”
because it is a specific, “discrete implementation that
improves upon the authorized use and playback of
data on portable storage devices.” PO Resp. 75.
Petitioner responds that Patent Owner does not
dispute that portable storage devices were already
known in the art, an assessment with which we agree,
and that “controlling authorized use and playback of
data, even on portable media, was already a wellknown technique in the art using [digital rights
management, i.e.,] DRM.” Pet. Reply 20 (citing Ex.
1004 ¶¶ 11, 56–61, 142; see also Pet. 35–36 (citing Ex.
1001, 13:28–31; Ex. 1004 ¶ 134) (addressing the
portable storage devices recited in dependent claim 9).
We agree with Petitioner. In particular, we credit
paragraph 142 of Dr. Wechselberg’s Declaration,
which addresses DRM on portable devices.
Patent Owner next identifies dependent claim 10,
which “limits the portable storage device to one of ten
discrete and specific media, including a mini-disk, a
DVD, and a PDA,” and asserts that “those devices
were not known in the art to augment a VPR/DMS
system (as set out in claim 1) or include the ability to
record rented data from the VPR/DMS system (as set
out in claim 9).” PO Resp. 75–76. Petitioner asserts

119a
that the ’437 patent itself admits that these are known
(Pet. 36), and that “augmenting” a system with
conventional portable storage devices cannot be
viewed as an inventive concept. Pet. Reply 21. We
agree with Petitioner. The DRM functionality on
portable devices generally was addressed by
Petitioner in its analysis of dependent claim 9. We are
persuaded that citing a laundry list of specific
portable devices, admitted in the ’437 patent as known
(Ex. 1001 13:26–31), is also insufficient to constitute
an inventive concept, especially where neither the
specification nor the claim sets forth the relevance of
the different types of portable storage devices to the
function of the system.
For dependent claim 13, Patent Owner asserts that
the requirement that “the simulated return that
deletes or scrambles (from Claim 1) on the portable
storage device” is an inventive concept, because it “it
limits the simulated return—itself a technological
solution to a technological problem and an inventive
concept—to a portable storage device.” PO Resp. 76.
Petitioner asserts that “[a] person of ordinary skill in
the art would understand that deleting or scrambling
data from a portable storage device was a well-known
activity at the time of the purported invention of the
’437 Patent.” Pet. 37 (citing Ex. 1004 ¶ 138); see also
Pet. Reply 21 (“Patent Owner does not assert that
deleting, scrambling, or blocking access to data on a
portable storage device itself is an inventive
concept.”). We agree with Petitioner, in part, because
we credit the undisputed content of paragraph 138 of
Dr. Wechselberg’s Declaration.

120a
Patent Owner purportedly addresses together
dependent claim 14 (“portable storage device . . .
connected to the processing circuitry for the deleting
or scrambling of the rented data”) and dependent
claim 15 (“copy protection of the data and a
confirmation that the data transferred from the nonmovable storage of the VPR/DMS (of Claim 1) to the
portable storage device has been deleted or rendered
inaccessible”), but then merely asserts that “[b]oth
claims are beyond BASCOM’s requirement at step
two,” before summarizing dependent claim 15. PO
Resp. 76–77. The substance of these arguments are
addressed by Petitioner (Pet. 37–38 (citing Ex. 1004
¶¶ 140, 142); Pet. Reply 22) using reasoning similar to
those identified above for similar claim limitations.
For the same reasons, we agree with Petitioner.
Finally, Patent Owner identifies claim 16, which
“limits the manner in which the rented data is
received to particular transmission technologies (e.g.,
UHF/VHF),” and while admitting that “[o]f course
UHF/VHF was known in the art,” asserts that
Petitioner “DISH has provided no evidence that those
particular transmission technologies were used in the
art to deliver rented data to a VPR/DMS with the
specific components, circuits, and capabilities of
Claim 1, including the ability to enact a simulated
return of the rented data.” PO Resp. 77–78. Petitioner
responds as follows:
Claim 16 merely lists various types of
information sources that may provide
the rented data. Ex. 1001 at Claim 16.
Patent Owner again bases its argument

121a
on the fact that it was not known to use
these transmission technologies with a
“VPR/DMS” as claimed in claim 1. PO
Response at 77. But giving a known prior
art system an acronym does not
transform
the
equipment
and
functionality into something more than
the abstract idea.
Pet. Reply 22; see also Pet. 39 (citing Ex. 1001, 1:53–
56). We are persuaded that Petitioner has shown
adequately that the information source of the “rented
data” is insufficient to constitute an inventive concept,
especially where neither the specification nor the
claim sets forth the relevance of the different types of
information source to the function of the system.
4. Conclusion
For the foregoing reasons, we determine that the
Petitioner has shown, by a preponderance of the
evidence, that claims 1, 9, 10, and 13–16 are
unpatentable under 35 U.S.C. § 101.
B. The Parties’ Post-Institution Arguments
Petitioner asserts that claims 1, 9, 10, and 13–16 are
either anticipated by Ginter, or rendered obvious in
view of Ginter and Stefik. Pet. 39–67. We must now
determine whether Petitioner has established by a
preponderance of the evidence that the specified
claims are unpatentable over the cited prior art. 35
U.S.C. § 316(e). We previously instructed Patent
Owner that “any arguments for patentability not
raised in the [Patent Owner Response] will be deemed
waived.” Paper 12, 6; see also 37 C.F.R. § 42.23(a)

122a
(“Any material fact not specifically denied may be
considered admitted.”). Additionally, the Board’s Trial
Practice Guide states that the Patent Owner
Response “should identify all the involved claims that
are believed to be patentable and state the basis for
that belief.” Office Patent Trial Practice Guide, 77
Fed. Reg. 48,756, 48,766 (Aug. 14, 2012).
In its Preliminary Response (Paper 6) and
Supplemental Response (Paper 51), Patent Owner did
not dispute Petitioner’s contentions that certain claim
limitations are described in the prior art. We find that
the Petition identifies where each of these
uncontested limitations is disclosed or suggested in
the prior art, for the grounds instituted. See Pet. 39–
67 (citing Exs. 1002–1004) (unchallenged portions
only). Based on the preponderance of the evidence
before us, we conclude that the prior art identified by
Petitioner describes all limitations of the reviewed
claims that were not contested by the Patent Owner
in either its Preliminary Response or Response. In re
NuVasive, 841 F.3d 966, 974 (2016). We address only
the contested limitations below.
C. Claims 1, 9, 10, and 13–16 as
Anticipated by Ginter
Petitioner asserts that Ginter anticipates claims 1,
9, 10, and 13–16. Pet. 39–54 (citing Exs. 1002, 1004).
Patent Owner disagrees. PO Supp. 1 (referring to
Prelim. Resp. 20–23, 39–45 (citing Exs. 1002, 2001)
and Dec. 19–22). Petitioner replies. Pet. Supp. 1–10
(citing Exs. 1001, 1004, 1015, 2001).

123a
1. Ginter (Ex. 1002)
Ginter is directed to a computer-based technology
that ensures that information is accessed and/or
otherwise used only in authorized ways, and
maintains the integrity, availability, and/or
confidentiality of such information and process
related to such use. Ex. 1002, 1:6‒12. Ginter discloses
the use of “electronic appliances,” such as computers,
to ensure that information is accessed only in
authorized ways. Ex. 1002, Abstract Ginter further
uses subsystems with the “electronic appliances” to
create a virtual distribution environment (VDE) that
controls or monitors the use of electronically stored
information. Ex. 1002, Abstract.
2. Relevant Claim Construction
Independent claim 1 recites “processing circuitry for
processing the data and for storing the processed data
in the built in storage device” and “a microprocessor
having software programming to control the operation
of the processing circuitry and the playback circuitry
enabling the recording of rented data.” Through its
assertions concerning the prior art, Patent Owner
argues that the recited “processing circuitry” must be
construed as being separate from the recited
“microprocessor.” Prelim. Resp. 39–40 (citing Ex.
1001, Figs. 2a, 7; Ex. 2001, 23. In support, Patent
Owner provides the following annotated version of
Figure 2a, which shows processing means 13 and
microprocessor 12 separately:’

124a

Prelim. Resp. 40. Figure 2a is block diagram of a
television unit. As noted in our Decision on
Institution, two distinct claim elements should each
be given full effect. Dec. 20.
Petitioner responds that “microprocessor” and
“processing circuitry” need not be physically distinct
elements, despite being named as different elements.
Pet. Supp. 3. In support, Petitioner offers several
pieces of evidence, each of which we evaluate in turn.
Petitioner first asserts that Dr. Kesan admitted that
the “microprocessor” and “processing circuitry” need
not be physically separate, and that the ’437 patent’s
only disclosures of the exact term “processing
circuitry” is consistent with that admission. Pet.
Supp. 3–4 (citing Ex. 1001, 8:57–59, 40:60–62; Ex.
1021, 104:7–105:24). We do not agree. In his
testimony, Dr. Kesan indicates that while the

125a
“microprocessor” and “processing circuitry” may be
fixed physically relative to each other, for example, on
the same motherboard, that they are, nevertheless,
separate components. Ex. 1021, 104:18–20 (“So that
means there is another circuitry – the processing
circuitry, that must be controlled by the
microprocessor.”). The cited portion of the ’437 patent
is consistent with that assertion, as it reads “[t]his
microprocessor has software programming to control
the operation of the processing circuitry and the
playback circuitry.” Ex. 1001, 8:57–59, 40:60–62.
While certainly possible, it, nevertheless, requires
some mental gymnastics to comprehend why a
component controlling a portion of itself would name
that portion something else.
Petitioner next asserts that Figure 1 of the ’437
patent does not disclose that the “microprocessor” and
“processing circuitry” are physically separate, in that
there is no separate block for “processing circuitry,”
and, instead, discloses that microprocessor 3 has the
circuitry for performing all processing functions. Pet.
Supp. 4–5 (citing Ex. 1001, 12:65–13:8, Fig. 1; Ex.
1021, 111:4–8). As an initial matter, we agree that
microprocessor 3 is capable of performing all
processing functions, and note, expressly, that the
cited portions of the ’437 patent and Dr. Kesan’s
testimony directly supports that finding. That finding,
however, does not support Petitioner’s assertion, as
the fact that microprocessor 3 has that capability does
not indicate that when separate “processing circuitry”
is identified, that such “processing circuitry” must be
located within microprocessor 3.

126a
Petitioner further identifies microcontroller 31 in
Figure 7 of the ’437 patent, and asserts that any data
in Figure 7 is processed by microprocessor 12, and not
by microcontroller 31. Pet. Supp. 5 (citing Ex. 1001,
Fig. 7; Ex. 1021, 127:16–129:21; Ex. 1022 ¶ 7). While
we agree with Petitioner’s factual assertion, it is,
again, misplaced, as we are unclear what relevance
the function of microcontroller 31 has in determining
the relationship between the recited “microprocessor”
and “processing circuitry.”
With respect to Figure 2a, the embodiment relied on
by Patent Owner for its position, Petitioner asserts
the following:
Dr. Kesan only cites to one figure—Fig.
2a—where the “processing means 13”
and microprocessor are shown as
separate blocks. Again, the phrase
“processing circuitry” is never exactly
identified in its own block in any
drawing. Rather, “processing circuitry”
is used to refer to circuitry that may also
be included in the microprocessor. Ex.
1001 at 14:13–18, 14:41–45.
Pet. Supp. 5–6. We disagree, in that we are
unpersuaded that it is credible to assert that
“processing means 13” cannot correspond to the
recited “processing circuitry.” This is especially so
where independent claim 1 recites “processing
circuitry for processing the data,” where the data is
received by the recited “receiver apparatus,” and the
’437
patent discloses, correspondingly, that

127a
“processing functions [are] applied to the received
data as it is transmitted through the processing
means 13.” See also Ex. 1001, 14:46–50 (“Processing
means 13 may include any number of circuits, signal
processors, filters, or other data manipulation devices
known in the art for providing any electronic features
or functions that may exist in standard televisions
and other such displays known in the art.”). Relatedly,
while the portions of the ’437 patent cited by
Petitioner do disclose that “microprocessor 12 controls
which processing functions (if any) are applied to the
received data,” we find that it is clear from the context
of the surrounding portions of the ’437 patent that the
such processing functions, while controlled by
microprocessor 12, are actually performed, at least in
this embodiment, by separate processing means 13.
See generally Ex. 1001, 14:11–65 (consistently refers
to separate microprocessor 12 and processing means
13).
Finally, Petitioner asserts that “Patent Owner’s
position requires importation of a single embodiment
(Fig. 2a) while excluding the three alternate
embodiments (Figs. 1, 7, and 8).” Pet. Supp. 6.
Petitioner’s assertion is misplaced, as this is not a
situation where there are many embodiments
including “processing circuitry.” and it is
impermissible to limit the construction of “processing
circuitry” such that it is only consistent with one of
those embodiments. Here, one embodiment clearly
discloses “processing circuitry;” and to find such
corresponding “processing circuitry” in other
embodiments requires mental gymnastics, an exercise

128a
in which we decline to partake for the reasons set forth
above. Under these circumstances, construing
“microprocessor” and “processing circuitry,” primarily
in view of the one disclosed embodiment that clearly
discloses “processing circuitry,” i.e., Figure 2a, is
appropriate.
For these reasons, we construe the “microprocessor”
and “processing circuitry” limitations of independent
claim 1 as being physically separate, in that the
recited “processing circuitry” cannot be a physical
subset of the recited “microprocessor.” 14
Additionally, for “processing circuitry,” Dr. Kesan
asserts the following:
One particularly novel aspect of claim
1 is the operation of the processing
circuitry. It performs three functions. It
(1) processes data from the receiver, (2)
stores the processed data in the storage
device of the memory circuitry, and (3)
receives programming functions from
the user interface.
Ex. 2001 ¶ 23 (cited at Prelim. Resp. 36); see also Ex.
2001 ¶ 28 (indicating the same). Petitioner proposes
adopting Patent Owner’s position as the proper
construction for “processing circuitry.” PO Supp. 6. We

This is to distinguish from the situation where the
recited “microprocessor” and “processing circuitry” are
permitted to be physically connected on the same
motherboard.
14

129a
agree that it is consistent with the claim language,
and, thus, adopt it as our own.
3. Analysis
Patent Owner asserts that Petitioner does not
account adequately for the “processing circuitry” and
the “microprocessor having software programming to
control the operation of the processing circuitry”
recited in independent claim 1. In particular, Patent
Owner asserts that Petitioner impermissibly maps
two distinct claim terms, “processing circuitry” and
“microprocessor,” to the same CPU 654 of Ginter.
Prelim. Resp. 39–44. Petitioner responds that the
Petition makes clear that while CPU 654 of Ginter
does correspond to the recited “microprocessor,” that
it is actually a combination of CPU 654 and I/O
controller 660 correspond to the recited “processing
circuitry.” Pet. Supp. 6–8 (citing Ex. 1002, 125:20–23,
186:21–187:2, 227:3–5; Ex. 1004 ¶ 58; Ex. 1021,
138:17–23; Ex. 2001 ¶ 28). As an initial matter, we
agree with Petitioner that combination of CPU 654
and I/O controller 660 performs the functions required
of the recited “processing circuitry.” We agree with
Patent Owner, however, that the mapping is
inadequate for the reasons it has identified. As set
forth above, we construe the “microprocessor” and
“processing circuitry” limitations of independent
claim 1 as being physically separate, in that the
recited “processing circuitry” cannot be a physical
subset of the recited “microprocessor.” While
Petitioner’s mapping does present some difficulties in
application, in that CPU 654 is cited as only a part of
the recited “processing circuitry,” it, nevertheless, is

130a
cited for at least portions of both the recited
“microprocessor” and “processing circuitry,” and, thus,
cannot meet the above construction, which does not
allow for such overlap.
In the alternative, Petitioner asserts that I/O
controller 660 of Ginter alone corresponds properly
the recited “processing circuitry,” because it is (a)
separate from CPU 654 (i.e., the purported
“microprocessor”), and (b) performs all three functions
set forth in the adopted construction of “processing
circuitry.” Pet. Supp. 8–10 (citing Ex. 1002, Fig. 8; Ex.
1021, 156:22–157:3; Ex. 1022 ¶¶ 56, 58; Ex. 1023,
131:21–132:17; Ex. 2001 ¶ 28). This assertion hinges
on whether I/O controller 660 processes data from a
receiver, as Petitioner asserts, and we agree, that Dr.
Kesan acknowledges that I/O controller 660 performs
the other functions required of the recited “processing
circuitry.” Ex. 2001 ¶ 28 (“I/O controller 660 of Ginter
permits CPU 654 and SPU 500 to read and write to
secondary storage 652 and keyboard/display 612, 614.
Therefore, I/O controller 660, arguably, performs
functions (2) and (3).”).
To that end, Petitioner asserts that Dr. Kesan
“moving data bit-from-bit from the receiver to the
storage device” meets the required function of
processing data from the receiver. PO Supp. 8–9.
Factually, we agree with Petitioner that Ginter
discloses I/O controller 660 “moving data bit-from-bit
from the receiver to the storage device.” We are
unpersuaded, however, that this is sufficient to
constitute the required processing of data from the
receiver. While Petitioner does cite a portion of Dr.

131a
Kesan’s testimony in support of that position (Ex.
1021, 156:22–157:3), Dr. Kesan’s later testimony does
not support that assertion, as follows:
Q. Okay. Let s go back, then, to claim
1. If a processing circuitry performs
moving data from the receiver bit by bit
to the built-in storage device, does it at
least satisfy claim 1, element processing
circuitry?
A. No, it doesn’t. And that’s what I was
indicating, that a person of ordinary skill
in the art would understand here, that
claim 1 recites the microprocessor and
then it separately recites another circuit
element processing circuitry. And that
processing circuitry processes the
received audio or video data and should
be capable of doing a whole variety of
kinds
of
processing
and
data
manipulation to the received audio or
video data.
Ex. 1021, 161:5–20.15 Moreover, we are unpersuaded
that “moving data bit-from-bit from the receiver to the
The factual underpinnings of Mr. Wechselberger’s
cited testimony specific to this issue relies on Dr.
Kesan’s testimony. Ex. 1022 ¶ 56 (“Even apart from
the text of the Ginter specification, a POSITA would
understand that the Fig. 8 ‘I/O controller 660
processes data received by a receiver,’ under Dr.
Kesan’s testimony that that ‘processing data’ is met
15

132a
storage device” is not subsumed within the function of
“stor[ing] the processed data in the storage device of
the memory circuitry,” which is separate from the
processing function at issue. Indeed, in construing
“microprocessor”
and
“processing
circuitry,”
Petitioner indicates, “the data is processed by the
microprocessor and not the microcontroller. Instead,
the microcontroller would appear to a POSITA to be
used solely to offload control functions from the
microprocessor.” Pet. Supp. 5 (citing Ex. 1001, Fig. 7;
Ex. 1022 ¶ 21). This is inconsistent with an assertion
that I/O controller 660 of Ginter performs data
processing functions, at least without further
explanation as to how I/O controller 660 differs from
microcontroller 31 of the ’437 patent, which Petitioner
did not provide.
For these reasons, we are unpersuaded that
Petitioner has met its burden of showing that Ginter
discloses “processing circuitry,” as recited in
independent claim 1. Accordingly, we are
unpersuaded that Petitioner has met its burden of
showing, by a preponderance of the evidence, that
Ginter anticipates independent claim 1, or claims 9,
10, and 13–16, each of which depend ultimately from
independent claim 1.

simply by moving received data to storage.”). It is
unpersuasive for the same reason.

133a
D. Claims 1, 9, 10, and 13–16 as
Obvious Over Ginter and Stefik
Petitioner asserts that a combination of Ginter and
Stefik renders obvious claims 1, 9, 10, and 13–16. Pet.
54–67 (citing Exs. 1002–1004). Patent Owner
disagrees. PO Supp. 1 (referring to Prelim. Resp. 20–
24, 45–51 (citing Exs. 1002–1004, 2001, 2003) and
Dec. 22–26). In particular, Patent Owner asserts that
Petitioner does not account adequately for the
processing circuitry” and the “microprocessor” recited
in independent claim 1, and also that the ASIC chip of
processing means 1200 of Stefik cannot correspond to
the recited “microprocessor.” We agree with Patent
Owner.
Petitioner asserts that the following disclosures in
Stefik account for the recited “processing circuitry”:
Stefik teaches that the hardware of a
repository includes “processing means
1200 . . . comprised of a processor
element 1201 and processor memory
1202.” Ex. 1003 at 14:13–15. “The
processing
means
1201
provides
controller, repository transaction and
usage rights transaction functions for
the repository.” Id. at 14:15–17. Stefik
explicitly teaches that “repositories are
used to store digital works.” Id. at 6:57–
58. Claim 1 of Stefik includes the
element of a “storage means for storing
digital works having attached usage
rights and fees.” Id. at 54:5–6. Moreover,

134a
Claim 8 of Stefik also recites the step of
“storing said digital work and said
attached one or more usage rights in a
server repository.” Id. at 55:25–26. A
person of ordinary skill in the art would
understand that repository transactions
include processing and storing digital
data. Ex. 1004 at ¶ 216.
Pet. 55–56.
Petitioner further asserts that the following
disclosures in Stefik account for the recited
“microprocessor”:
As discussed above, Stefik teaches that
the hardware of a repository may
comprise a processing means. Ex. 1003
at 14:13– 15. Stefik teaches that the
functional component of a repository “is
typically software executing on the
hardware embodiment.” Id. at 14:1–3.
This functional software “may be
embedded in the hardware embodiment
such as an Application Specific
Integrated Circuit (ASIC) chip.” Id. at
14:3–6. A person of ordinary skill in the
art would know that an ASIC chip is a
microprocessor. Ex. 1004 at ¶ 223. The
functional embodiment comprises “an
operating system 1301, core repository
services
1302,
usage
transaction
handlers 1303, repository specific
functions, 1304 and a user interface

135a
1305.” Ex. 1003 at 14:53–55. Stefik
further teaches that the operating
system “provide[s] the basic services for
controlling and interfacing between the
basic components of the repository.” Id.
at 14:59-61. As discussed above, the
basic components of the repository
include
processing
circuitry
and
playback circuitry. See supra at VI.C.1.d,
VI.C.1.f. Therefore, Stefik discloses
software to control the processing
circuitry and playback circuitry.
Pet. 58–59.
Patent Owner asserts that Petitioner impermissibly
maps two distinct claim terms, “processing circuitry”
and “microprocessor,” to the same processing means
1200 of Stefik. We agree. See Unique Concepts, Inc. v.
Brown, 939 F.2d 1558, 1563 (Fed. Cir. 1991) (two
distinct claim elements should each be given full
effect). Indeed, to determine otherwise would
impermissibly read one of “processing circuitry” and
“microprocessor” out of the claim. See Tex.
Instruments Inc. v. U. S. Int’l Trade Comm’n, 988 F.2d
1165, 1171 (Fed. Cir. 1993) (explaining that claim
language cannot be mere surplusage, an express
limitation cannot be read out of the claim). Mapping
both claim terms to processing means 1200 of Stefik is
especially problematic for the “microprocessor”
limitation, which reads, in context, “a microprocessor
having software programming to control the operation
of the processing circuitry” (Claim 1 (emphasis
added)).

136a
In making our determination, we acknowledge that
it is perhaps plausible that Petitioner is mapping
“processing circuitry” and “microprocessor” to
processing means 1200 and processor element 1201,
respectively, where processor element 1201 is a
component of processing means 1200. We are
unpersuaded,
however,
that
Petitioner
has
articulated that mapping with sufficient particularity
in the aforementioned portions of the Petition. See 35
U.S.C. § 312(a)(2) (“A petition filed under section 311
may be considered only if . . . the petition identifies, in
writing and with particularity, each claim challenged,
the grounds on which the challenge to each claim is
based, and the evidence that supports the grounds for
the challenge to each claim . . . .”). Moreover, as each
of “processing circuitry”and “microprocessor” are
recited as performing functions, if anything, it would
appear that both “processing circuitry” and
“microprocessor” should be mapped to processor
element 1201, which would still be deficient for the
reasons set forth above concerning processing means
1200.
Patent Owner also asserts that Petitioner maps the
ASIC chip of processing means 1200, which appears to
be the same as processor element 1201, of Stefik to the
recited “microprocessor,” but that an ASIC chip
cannot correspond properly to a “microprocessor.” We
agree. Patent Owner cites to a link to a webpage which
defines ASIC as follows:
(Application
Specific
Integrated
Circuit) Pronounced “a-sick.”A chip that
is custom designed for a specific

137a
application rather than a generalpurpose chip such as a microprocessor.
The use of ASICs improve performance
over general-purpose CPUs, because
ASICs are “hardwired” to do a specific job
and do not incur the overhead of fetching
and interpreting stored instructions.
Ex. 2003; see also Dictionary.com Unabridged,
Random House, Inc. http://www.dictionary.com/
browse/microprocessor (accessed: June 12, 2017) (Ex.
3001) (microprocessor is “an integrated circuit that
performs all the functions of a CPU”). Based on the
above, we find that an ASIC is not a microprocessor.
Against this objective evidence, Petitioner only
provides a citation to paragraph 223 of Mr.
Wechselberger’s Declaration, and the relevant portion
of that paragraph merely repeats the same line in the
Petition, “[a] person of ordinary skill in the art would
know that an ASIC chip is a microprocessor,” without
further relevant explanation or analysis.
For these reasons, we are unpersuaded that
Petitioner has met its burden of showing that a
combination of Ginter and Stefik accounts for both
“microprocessor” and “processing circuitry,” as recited
in independent claim 1. Accordingly, we are
unpersuaded that Petitioner has met its burden of
showing, by a preponderance of the evidence, that a
combination of Ginter and Stefik renders obvious
independent claim 1, or claims 9, 10, and 13–16, each
of which depend ultimately from independent claim 1.

138a
E. Conclusion
Petitioner has met its burden of (1) demonstrating
that the ’437 patent is covered business method patent
eligible for review, and (2) showing, by a
preponderance of the evidence claims 1, 9, 10, and 13–
16 of the ’437 patent are unpatentable under 35 U.S.C.
§ 101. Petitioner has not, however, met its burden of
showing that claims 1, 9, 10, and 13–16 are either (1)
anticipated by Ginter or (2) obvious in view of Ginter
and Stefik.
III. ORDER
After due consideration of the record before us, and
for the foregoing reasons, it is:
ORDERED that claims 1, 9, 10, and 13–16 of the
’437 patent are held unpatentable; and
FURTHER ORDERED that, because this is a Final
Written Decision, parties to the proceeding seeking
judicial review of the Decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.
PETITIONER:
Eliot D. Williams
G. Hopkins Guy
Ali Dhanani
BAKER BOTTS LLP
eliot.williams@bakerbotts.com
hop.guy@bakerbotts.com
ali.dhanani@bakerbotts.com

139a
PATENT OWNER:
Steven Tepera
Daniel Scardino
ROSS SNYDER REED & SCARDINO LLP
stepera@reedscardino.com
dscardino@reedscardino.com

140a
APPENDIX H
UNITED STATES PATENT AND TRADEMARK OFFICE

____________
UNITED STATES PATENT NO. 7,840,437
____________
SYSTEM FOR DATA MANAGEMENT AND ON-DEMAND
RENTAL AND PURCHASE OF DIGITAL DATA PRODUCTS
____________
WILLIAM HENRY LEWIS, INVENTOR
____________
Filed: Sep. 3, 2004
Priority: Jun. 12, 1997
Issued: Nov. 23, 2010

141a

142a

143a

144a

145a

146a

147a

148a

149a

150a

151a

152a

153a

154a

155a

156a

157a

158a

159a

160a

161a

162a

163a

164a

165a

166a

167a

168a

169a

170a

171a

172a

173a

174a

175a

176a

177a

178a

179a

180a

181a

182a

183a

184a

185a

186a
APPENDIX I
1. U.S. Const. Art. II, § 2, Cl. 2 provides:
He shall have Power, by and with the Advice and Consent
of the Senate, to make Treaties, provided two thirds of the
Senators present concur; and he shall nominate, and by
and with the Advice and Consent of the Senate, shall
appoint Ambassadors, other public Minsters and Consuls,
Judges of the supreme Court, and all other Officers of the
United States, whose Appointments are not herein
otherwise provided for, and which shall be established by
Law: but the Congress may be Law vest the Appointment
of such inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads of
Departments.
2. U.S. Const. Amend. V provides:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in
the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor
shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.

187a
3. 5 U.S.C. 554 provides:
Adjudications
(a) This section applies, according to the
provisions thereof, in every case of adjudication
required by statute to be determined on the record
after opportunity for an agency hearing, except to the
extent that there is involved—
(1) a matter subject to a subsequent trial of
the law and the facts de novo in a court;
(2) the selection or tenure of an employee,
except a [1] administrative law judge appointed
under section 3105 of this title;
(3) proceedings in which decisions rest solely
on inspections, tests, or elections;
(4) the conduct of military or foreign affairs
functions;
(5) cases in which an agency is acting as an
agent for a court; or
(6)

the certification of worker representatives.

(b) Persons entitled to notice of an agency
hearing shall be timely informed of—
(1)

the time, place, and nature of the hearing;

(2) the legal authority and jurisdiction under
which the hearing is to be held; and
(3)

the matters of fact and law asserted.

188a
When private persons are the moving parties, other
parties to the proceeding shall give prompt notice of
issues controverted in fact or law; and in other
instances agencies may by rule require responsive
pleading. In fixing the time and place for hearings,
due regard shall be had for the convenience and
necessity of the parties or their representatives.
(c) The agency shall give all interested parties
opportunity for—
(1) the submission and consideration of facts,
arguments, offers of settlement, or proposals of
adjustment when time, the nature of the
proceeding, and the public interest permit; and
(2) to the extent that the parties are unable so
to determine a controversy by consent, hearing and
decision on notice and in accordance with sections
556 and 557 of this title.
(d) The employee who presides at the reception of
evidence pursuant to section 556 of this title shall
make the recommended decision or initial decision
required by section 557 of this title, unless he becomes
unavailable to the agency. Except to the extent
required for the disposition of ex parte matters as
authorized by law, such an employee may not—
(1) consult a person or party on a fact in issue,
unless on notice and opportunity for all parties to
participate; or
(2) be responsible to or subject to the
supervision or direction of an employee or agent

189a
engaged in the performance of investigative or
prosecuting functions for an agency.
An employee or agent engaged in the
performance of investigative or prosecuting
functions for an agency in a case may not, in that
or a factually related case, participate or advise in
the decision, recommended decision, or agency
review pursuant to section 557 of this title, except
as witness or counsel in public proceedings. This
subsection does not apply—
(A) in determining applications for initial
licenses;
(B) to proceedings involving the validity
or application of rates, facilities, or practices of
public utilities or carriers; or
(C) to the agency or a member or members
of the body comprising the agency.
(e) The agency, with like effect as in the case of
other orders, and in its sound discretion, may issue a
declaratory order to terminate a controversy or
remove uncertainty.
4. 35 U.S.C. 101 provides:
Inventions patentable
Whoever invents or discovers any new and
useful process, machine, manufacture, or composition
of matter, or any new and useful improvement

190a
thereof, may obtain a patent therefor, subject to the
conditions and requirements of this title.
5. 35 U.S.C. 141 provides:
Appeal to Court of Appeals for the Federal
Circuit
(a) EXAMINATIONS.—An
applicant
who
is
dissatisfied with the final decision in an appeal to the
Patent Trial and Appeal Board under section 134(a)
may appeal the Board’s decision to the United States
Court of Appeals for the Federal Circuit. By filing such
an appeal, the applicant waives his or her right to
proceed under section 145.
(b) REEXAMINATIONS.—A patent owner who is
dissatisfied with the final decision in an appeal of a
reexamination to the Patent Trial and Appeal Board
under section 134(b) may appeal the Board’s decision
only to the United States Court of Appeals for the
Federal Circuit.
(c) POST-GRANT AND INTER PARTES REVIEWS.—A
party to an inter partes review or a post-grant review
who is dissatisfied with the final written decision of
the Patent Trial and Appeal Board under section
318(a) or 328(a) (as the case may be) may appeal the
Board’s decision only to the United States Court of
Appeals for the Federal Circuit.
(d) DERIVATION PROCEEDINGS.—A party to a
derivation proceeding who is dissatisfied with the
final decision of the Patent Trial and Appeal Board in

191a
the proceeding may appeal the decision to the United
States Court of Appeals for the Federal Circuit, but
such appeal shall be dismissed if any adverse party to
such derivation proceeding, within 20 days after the
appellant has filed notice of appeal in accordance with
section 142, files notice with the Director that the
party elects to have all further proceedings conducted
as provided in section 146. If the appellant does not,
within 30 days after the filing of such notice by the
adverse party, file a civil action under section 146, the
Board’s decision shall govern the further proceedings
in the case.
6. 35 U.S.C. 311 provides:
Inter partes review
(a) IN GENERAL.—Subject to the provisions of this
chapter, a person who is not the owner of a patent may
file with the Office a petition to institute an inter
partes review of the patent. The Director shall
establish, by regulation, fees to be paid by the person
requesting the review, in such amounts as the
Director determines to be reasonable, considering the
aggregate costs of the review.
(b) SCOPE.—A petitioner in an inter partes
review may request to cancel as unpatentable 1 or
more claims of a patent only on a ground that could be
raised under section 102 or 103 and only on the basis
of prior art consisting of patents or printed
publications.

192a
(c) FILING DEADLINE.—A petition for inter partes
review shall be filed after the later of either—
(1) the date that is 9 months after the grant of
a patent; or
(2) if a post-grant review is instituted under
chapter 32, the date of the termination of such
post-grant review.
7. 35 U.S.C. 312 provides:
Petitions
(a) REQUIREMENTS OF PETITION.—A petition filed
under section 311 may be considered only if—
(1) the petition is accompanied by payment of
the fee established by the Director under section
311;
(2) the petition identifies all real parties in
interest;
(3) the petition identifies, in writing and with
particularity, each claim challenged, the grounds
on which the challenge to each claim is based, and
the evidence that supports the grounds for the
challenge to each claim, including—
(A) copies of patents and printed
publications that the petitioner relies upon in
support of the petition; and
(B) affidavits
or
declarations
of
supporting evidence and opinions, if the
petitioner relies on expert opinions;

193a
(4) the petition provides such other
information as the Director may require by
regulation; and
(5) the petitioner provides copies of any of the
documents required under paragraphs (2), (3), and
(4) to the patent owner or, if applicable, the
designated representative of the patent owner.
(b) PUBLIC AVAILABILITY.—As soon as practicable
after the receipt of a petition under section 311, the
Director shall make the petition available to the
public.
8. 35 U.S.C. 321 provides:
Post-grant review
(a) IN GENERAL.—Subject to the provisions of this
chapter, a person who is not the owner of a patent may
file with the Office a petition to institute a post-grant
review of the patent. The Director shall establish, by
regulation, fees to be paid by the person requesting
the review, in such amounts as the Director
determines to be reasonable, considering the
aggregate costs of the post-grant review.
(b) SCOPE.—A petitioner in a post-grant review
may request to cancel as unpatentable 1 or more
claims of a patent on any ground that could be raised
under paragraph (2) or (3) of section 282(b) (relating
to invalidity of the patent or any claim).
(c) FILING DEADLINE.—A petition for a post-grant
review may only be filed not later than the date that

194a
is 9 months after the date of the grant of the patent or
of the issuance of a reissue patent (as the case may
be).
9. 35 U.S.C. 322 provides:
Petitions
(a) REQUIREMENTS OF PETITION.—A petition filed
under section 321 may be considered only if—
(1) the petition is accompanied by payment of
the fee established by the Director under section
321;
(2) the petition identifies all real parties in
interest;
(3) the petition identifies, in writing and with
particularity, each claim challenged, the grounds
on which the challenge to each claim is based, and
the evidence that supports the grounds for the
challenge to each claim, including—
(A) copies of patents and printed
publications that the petitioner relies upon in
support of the petition; and
(B) affidavits
or
declarations
of
supporting evidence and opinions, if the
petitioner relies on other factual evidence or on
expert opinions;
(4) the petition provides such other information
as the Director may require by regulation; and

195a
(5) the petitioner provides copies of any of the
documents required under paragraphs (2), (3), and (4)
to the patent owner or, if applicable, the designated
representative of the patent owner.
(b) PUBLIC AVAILABILITY.—As soon as practicable
after the receipt of a petition under section 321, the
Director shall make the petition available to the
public.
10. 35 U.S.C. 324 provides:
Institution of post-grant review
(a) THRESHOLD.—The
Director
may
not
authorize a post-grant review to be instituted unless
the Director determines that the information
presented in the petition filed under section 321, if
such information is not rebutted, would demonstrate
that it is more likely than not that at least 1 of the
claims challenged in the petition is unpatentable.
(b) ADDITIONAL GROUNDS.—The determination
required under subsection (a) may also be satisfied by
a showing that the petition raises a novel or unsettled
legal question that is important to other patents or
patent applications.
(c) TIMING.—The Director shall determine
whether to institute a post-grant review under this
chapter pursuant to a petition filed under section 321
within 3 months after—
(1) receiving a preliminary response to the
petition under section 323; or

196a
(2) if no such preliminary response is filed,
the last date on which such response may be filed.
(d) NOTICE.—The Director shall notify the
petitioner and patent owner, in writing, of the
Director’s determination under subsection (a) or (b),
and shall make such notice available to the public as
soon as is practicable. Such notice shall include the
date on which the review shall commence.
(e) NO APPEAL.—The determination by the
Director whether to institute a post-grant review
under this section shall be final and nonappealable.
11. 35 U.S.C. 326 provides:
Conduct of post-grant review
(a) REGULATIONS.—The Director shall prescribe
regulations—
(1) providing that the file of any proceeding
under this chapter shall be made available to the
public, except that any petition or document filed
with the intent that it be sealed shall, if
accompanied by a motion to seal, be treated as
sealed pending the outcome of the ruling on the
motion;
(2) setting forth the standards for the showing
of sufficient grounds to institute a review under
subsections (a) and (b) of section 324;

197a
(3) establishing
procedures
for
the
submission of supplemental information after the
petition is filed;
(4) establishing and governing a post-grant
review under this chapter and the relationship of
such review to other proceedings under this title;
(5) setting forth standards and procedures for
discovery of relevant evidence, including that such
discovery shall be limited to evidence directly
related to factual assertions advanced by either
party in the proceeding;
(6) prescribing sanctions for abuse of
discovery, abuse of process, or any other improper
use of the proceeding, such as to harass or to cause
unnecessary delay or an unnecessary increase in
the cost of the proceeding;
(7) providing for protective orders governing
the exchange and submission of confidential
information;
(8) providing for the filing by the patent
owner of a response to the petition under section
323 after a post-grant review has been instituted,
and requiring that the patent owner file with such
response, through affidavits or declarations, any
additional factual evidence and expert opinions on
which the patent owner relies in support of the
response;
(9) setting forth standards and procedures for
allowing the patent owner to move to amend the

198a
patent under subsection (d) to cancel a challenged
claim or propose a reasonable number of substitute
claims, and ensuring that any information
submitted by the patent owner in support of any
amendment entered under subsection (d) is made
available to the public as part of the prosecution
history of the patent;
(10) providing either party with the right to an
oral hearing as part of the proceeding;
(11) requiring that the final determination in
any post-grant review be issued not later than 1
year after the date on which the Director notices
the institution of a proceeding under this chapter,
except that the Director may, for good cause
shown, extend the 1-year period by not more than
6 months, and may adjust the time periods in this
paragraph in the case of joinder under section
325(c); and
(12) providing the petitioner with at least 1
opportunity to file written comments within a time
period established by the Director.
(b) CONSIDERATIONS.—In prescribing regulations
under this section, the Director shall consider the
effect of any such regulation on the economy, the
integrity of the patent system, the efficient
administration of the Office, and the ability of the
Office to timely complete proceedings instituted under
this chapter.

199a
(c) PATENT TRIAL AND APPEAL BOARD.—The
Patent Trial and Appeal Board shall, in accordance
with section 6, conduct each post-grant review
instituted under this chapter.
(d)

AMENDMENT OF THE PATENT.—

(1) IN GENERAL.—During a post-grant review
instituted under this chapter, the patent owner
may file 1 motion to amend the patent in 1 or more
of the following ways:
(A)

Cancel any challenged patent claim.

(B) For each challenged claim, propose a
reasonable number of substitute claims.
(2) ADDITIONAL
MOTIONS.—Additional
motions to amend may be permitted upon the joint
request of the petitioner and the patent owner to
materially advance the settlement of a proceeding
under section 327, or upon the request of the
patent owner for good cause shown.
(3) SCOPE OF CLAIMS.—An amendment under
this subsection may not enlarge the scope of the
claims of the patent or introduce new matter.
(e) EVIDENTIARY STANDARDS.—In a post-grant
review instituted under this chapter, the petitioner
shall have the burden of proving a proposition of
unpatentability by a preponderance of the evidence.

200a
12. 35 U.S.C. 328 provides:
Decision of the Board
(a) FINAL WRITTEN DECISION.—If a post-grant
review is instituted and not dismissed under this
chapter, the Patent Trial and Appeal Board shall
issue a final written decision with respect to the
patentability of any patent claim challenged by the
petitioner and any new claim added under section
326(d).
(b) CERTIFICATE.—If the Patent Trial and Appeal
Board issues a final written decision under subsection
(a) and the time for appeal has expired or any appeal
has terminated, the Director shall issue and publish a
certificate canceling any claim of the patent finally
determined to be unpatentable, confirming any claim
of the patent determined to be patentable, and
incorporating in the patent by operation of the
certificate any new or amended claim determined to
be patentable.
(c) INTERVENING
RIGHTS.—Any
proposed
amended or new claim determined to be patentable
and incorporated into a patent following a post-grant
review under this chapter shall have the same effect
as that specified in section 252 for reissued patents on
the right of any person who made, purchased, or used
within the United States, or imported into the United
States, anything patented by such proposed amended
or new claim, or who made substantial preparation
therefor, before the issuance of a certificate under
subsection (b).

201a
(d) DATA ON LENGTH OF REVIEW.—The Office
shall make available to the public data describing the
length of time between the institution of, and the
issuance of a final written decision under subsection
(a) for, each post-grant review.
13. 35 U.S.C. 329 provides:
Appeal
A party dissatisfied with the final written decision
of the Patent Trial and Appeal Board under section
328(a) may appeal the decision pursuant to sections
141 through 144. Any party to the post-grant review
shall have the right to be a party to the appeal.

